<html>
<title> - PREPARING FOR A CATASTROPHE: THE HURRICANE PAM EXERCISE</title>
<body><pre>[Senate Hearing 109-403]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-403
 
                      PREPARING FOR A CATASTROPHE:
                       THE HURRICANE PAM EXERCISE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION




                               __________

                            JANUARY 24, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
26-749                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
                    Jennifer C. Boone, FBI Detailee
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Robert F. Muse, Minority General Counsel
           F. James McGee, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Levin................................................    25
    Senator Carper...............................................    28

                               WITNESSES
                       Tuesday, January 24, 2006

Wayne Fairley, Chief, Response Operations Branch, Response and 
  Recovery Division, Region VI, Federal Emergency Management 
  Agency, Denton, Texas..........................................     7
Sean R. Fontenot, Former Chief, Planning Division, Former Chief, 
  Preparedness Division, Louisiana Office of Homeland Security 
  and Emergency Preparedness, Baton Rouge, Louisiana.............    10
Jesse St. Amant, Director, Homeland Security and Emergency 
  Preparedness, Plaquemines Parish, Louisiana....................    13
Madhu Beriwal, President and Chief Executive Officer, Innovative 
  Emergency Management, Inc., Baton Rouge, Louisiana.............    15

                     Alphabetical List of Witnesses

Beriwal, Madhu:
    Testimony....................................................    15
    Prepared statement...........................................    58
Fairley, Wayne:
    Testimony....................................................     7
    Prepared statement...........................................    41
Fontenot, Sean R.:
    Testimony....................................................    10
    Prepared statement...........................................    47
St. Amant, Jesse:
    Testimony....................................................    13
    Prepared statement...........................................    56

                                Appendix

Response to Questions for the Record from:
    Mr. Fairley..................................................    68
    Mr. Fontenot.................................................    75
    Ms. Beriwal..................................................    78
Exhibit B........................................................    80
Exhibit D........................................................    90
Exhibit E........................................................    94
Exhibit F........................................................    95
Exhibit H........................................................   100
Exhibit K........................................................   104


                      PREPARING FOR A CATASTROPHE:
                       THE HURRICANE PAM EXERCISE

                              ----------                              


                       TUESDAY, JANUARY 24, 2006

                                       U.S. Senate,
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Susan M. Collins, 
Chairman of the Committee, presiding.
    Present: Senators Collins, Lieberman, Levin, and Carper.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Good 
morning.
    Today, the Committee on Homeland Security continues our 
investigation into Hurricane Katrina. Over the last 4 months, 
we have conducted 10 hearings on major aspects of the causes 
and management of this disaster, including a field visit 
exactly 1 week ago to the Mississippi Gulf Coast and to New 
Orleans. Our staff has conducted more than 200 interviews and 
has reviewed more than 300,000 pages of documents.
    Now, we are about to enter the final phase of our work. 
Hurricane Katrina proved to be one of the deadliest and 
certainly the most costly natural disaster in America's 
history. If our Nation cannot give a good account of our 
ability to manage such a predicted, known, and trackable event 
as a hurricane, we must surely question our preparedness for 
dealing with a stealthier, more sinister terrorist attack.
    Therefore, based on all we have learned from our previous 
hearings, interviews, and document review, this Committee will 
undertake over the next 3 weeks a series of hearings to cover 
the most troubling aspects of the response to Katrina as a 
prelude to drafting our final report.
    The focus of today's hearing is the simulation called 
Hurricane Pam, a federally funded exercise to plan for a 
catastrophic hurricane in Southeast Louisiana. We will examine 
both the lessons learned and the lessons that with such 
terrible consequences went unlearned. This hearing is intended 
to shed light on the following issues: How did Hurricane Pam 
come about? Who took the initiative to promote it? What does 
its history say about the state of emergency preparedness in 
Louisiana prior to Katrina? What roadblocks had to be overcome 
to get Federal funding for the exercise in both President 
Clinton's and President Bush's Administrations? Do these 
roadblocks raise concerns about government priorities in 
improving emergency preparedness? What was the scope of 
Hurricane Pam, including assumptions about the specific 
planning scenarios? How did pre-storm evacuation come to be 
largely excluded from the exercise? Did Hurricane Pam create 
the impression within FEMA that Louisiana had evacuation under 
control? Why was the plan not completed? How did the failure to 
complete the plan affect its usefulness in Katrina? What 
aspects of the draft Pam plan were used in responding to 
Katrina? What aspects could have been used but were not?
    The Hurricane Pam exercise was conducted in Louisiana by 
FEMA from July 16 through 23, 2004. It brought together as many 
as 300 local, State, and Federal emergency response officials. 
This fictional storm was designed as a slow-moving Category 3 
hurricane that had sustained winds of 120 miles per hour at 
landfall. It caused as much as 10 to 20 feet of flooding 
throughout most of New Orleans and the surrounding parishes as 
the result of heavy rain and a storm surge that overtopped the 
levees. Pam's mock damage spread over 13 Louisiana parishes and 
was extensive. In the scenario, utilities were knocked out and 
chemical plants were flooded. The human cost under the scenario 
was staggering. More than a million people evacuated, 175,000 
were injured, 200,000 became sick, and as many as 60,000 lives 
were lost.
    As a dry run for the real thing, Pam should have been a 
wake-up call that could not be ignored. Instead, it seems that 
a more appropriate name for Pam would have been Cassandra, the 
mythical prophet who warned of disasters but whom no one really 
believed. In many ways, the hypothetical problems identified in 
Pam predict with eerie accuracy the all-too-real problems of 
Katrina--overcrowded shelters undersupplied with food, water, 
and other essentials; blocked highways with thousands of people 
trapped in flooded areas; hospitals swamped with victims and 
running out of fuel for their emergency generators. The list 
goes on and on.
    The history of Pam dates back to 1998, when New Orleans 
experienced a near-miss from another hurricane. In the fall of 
1999, local, State, and Federal officials met to discuss their 
concerns about the adequacy of plans to respond to a direct hit 
on the city. The State of Louisiana followed up with a written 
request to FEMA in August 2000 for a planning exercise. But 
delay followed delay. Then FEMA reduced the funding allocation 
so the scope of the exercise had to be scaled back. In 
reaction, the State agency chose to exclude the critical issue 
of pre-landfall evacuation and the possibility that the levees 
could be breached rather than merely overtopped.
    The Pam exercise that finally commenced in July 2004 was 
supposed to be just the first installment of an ongoing 
process. A follow-up session scheduled for September 2004 was 
postponed and critical workshops were not reconvened until late 
July 2005, with the result being that no additional planning 
documents were generated before they were so urgently needed.
    Instead, Pam became Katrina. The simulation became reality. 
And optimism became the awful truth. We were not prepared.
    There are instances in which the Pam exercise did improve 
the response to Katrina. For example, the Louisiana National 
Guard incorporated lessons regarding the staging and 
distribution of such essential commodities as food and water. 
The State Department of Health and Hospitals adopted concepts 
developed in Pam on how to evaluate individuals saved through 
search and rescue efforts.
    Our witnesses today represent a wide range of entities 
involved in the Hurricane Pam exercise. I'm very interested in 
hearing their frank views on the questions that I raised 
earlier.
    An evaluation of the Pam simulation is important for at 
least two reasons. First, the stated purpose of the Hurricane 
Pam exercise was not fulfilled when it counted, with 
catastrophic consequences. Second, throughout our Nation, 
local, State, and Federal emergency response agencies engage in 
a great many training exercises at considerable expense in 
anticipation of a wide range of natural and manmade disasters. 
We must use and learn from the experience of Pam and Katrina to 
close the gap between planning and execution so that we are 
better prepared the next time simulation becomes reality.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much, Madam Chairman, for 
convening this 11th hearing in our investigation of how the 
government prepared for and responded to Hurricane Katrina, and 
as you said, this one begins a 3-week series of hearings in 
which we have the opportunity to make public a lot of the hard 
work that our staffs have done in investigating what happened.
    The title of today's hearing is, ``Preparing for a 
Catastrophe: The Hurricane Pam Exercise.'' Preparing for a 
catastrophe--the phrase makes a mournful sound when said 
against the backdrop of the misery and destruction the world 
saw on television last year and that Members of this Committee 
still saw last week when we visited the Gulf Coast and held a 
hearing in Mississippi. The plain facts are that Katrina was a 
very powerful storm, but it would have caused much less misery 
and destruction had we prepared for it better.
    This enlargement from the New Orleans Times-Picayune,\1\ 
August 30, the day after Hurricane Katrina hit landfall, really 
tells it all. The big banner word is ``Catastrophic,'' which it 
was. But in smaller red print at the top, over the masthead, it 
also tells it all. ``Katrina: The Storm We've Always Feared''--
the storm people in the Gulf Coast had always feared, the storm 
people knew would hit one day, the storm they actually 
practiced for in the Hurricane Pam exercise that is the topic 
of today's hearing.
---------------------------------------------------------------------------
    \1\ Exhibit E submitted for the Record by Senator Lieberman appears 
in the Appendix on page 94.
---------------------------------------------------------------------------
    In the 10 Committee hearings on Katrina we have already 
held, in our staff interviews of more than 200 witnesses, in 
our review of tens of thousands of documents, we have already 
learned enough to be not just disappointed, but truly 
infuriated by the poor performance of all levels of government 
in preparing for and responding to Hurricane Katrina, and these 
conclusions, amplified as I am confident they will be over the 
coming weeks, should compel us to achieve top-to-bottom reform 
of the way we prepare for and respond to disasters.
    Katrina was not just predictable, it was predicted over and 
over again. As the FEMA Coordinator for the Hurricane Pam 
exercise told our investigative staff last Friday, Katrina was 
a ``replication'' of Pam and Pam itself was staged in response 
to the flooding in Biloxi, Mississippi, in 1998 caused by 
Hurricane Georges that made State and local officials of the 
Gulf Coast realize they could be overwhelmed if and when the 
``big one'' hit. The Hurricane Pam exercise in the spring and 
summer of 2004 actually and eerily predicted the emergency 
response crises and the devastation that occurred last August 
and September.
    Today, we are going to hear from four witnesses who 
participated in the Hurricane Pam exercise who will tell us 
that the problems we saw last August and September were known 
long before Katrina hit the Gulf Coast, even long before Pam 
predicted them. The fictional hurricane of the Pam exercise was 
a slow-moving Category 3 hurricane, quite similar to Katrina 
except that in the fictional exercise, Pam hit New Orleans 
directly, and as we know, thank God, Katrina blew about 15 
miles to the east of the city. Had Katrina hit New Orleans 
head-on as the Pam exercise predicted for Pam, 67,000 deaths 
would have resulted. That is what the Pam exercise projected. 
That gives us an idea of how much more catastrophic Katrina 
could have been and therefore how much more urgent disaster 
preparation should have been.
    The Pam exercise also put State and local governments and 
FEMA and its parent, the Department of Homeland Security, on 
notice that the people of New Orleans would experience exactly 
the problems that we all witnessed last August that Senator 
Collins has spoken to. The Pam exercise also predicted 
widespread flooding throughout New Orleans, hospitals and 
nursing homes underwater, hundreds of thousands of people 
displaced, and local first responders incapacitated. In this 
regard, Pam gave DHS and FEMA explicit notice that State and 
local governments would be overwhelmed when New Orleans got hit 
with a catastrophic hurricane and that comprehensive Federal 
assistance would, therefore, be critically and urgently 
necessary.
    But despite these warnings from Pam, preparations for 
Katrina were shockingly poor. Two to 3 days before Katrina hit, 
it became clear that it would be catastrophic. In fact, as 
Katrina approached the Gulf Coast 2 days before landfall, 
Saturday, August 27, our staff has obtained a document which 
shows that FEMA issued a briefing at 9 a.m. on that Saturday 
morning before the Monday of landfall which declared that the 
Pam ``exercise projection is exceeded by Hurricane Katrina 
real-life impacts.'' The failure to heed the fictional Pam's 
many warnings compounded the tragedy when Katrina hit in real 
time and full fury. That is the sad story that our Committee's 
hearings will tell in detail in the 3 weeks ahead.
    Before closing and as we embark on this stage of the 
investigation, I feel compelled to say a few words about the 
conduct of the investigation. First, I want to thank Chairman 
Collins and her staff for working with me and my staff to 
conduct an aggressive and thoroughly bipartisan investigation. 
This has become our norm on this Committee, but I don't want 
the Chairman to think that I take it for granted. We have 
worked together as all investigative committees in this 
Congress should, without partisan division and with a shared 
view that our goal is to uncover what happened with respect to 
Hurricane Katrina so that we can make sure our government is 
much better prepared the next time disaster strikes.
    Unfortunately, though, I cannot give the same high marks to 
the Executive Branch for its response to our investigation, and 
the problems begin at the White House, where there has been a 
near total lack of cooperation that has made it impossible, in 
my opinion, for us to do the thorough investigation we have a 
responsibility to do. Why does this matter? Well, here is an 
example.
    The Committee has found evidence that we will describe in 
the hearings ahead that beginning on Friday before the Monday 
of landfall, there are explicit statements in e-mails by high-
ranking officials at FEMA which show they understood the 
severity of the storm that was coming--Friday, the document I 
quoted earlier on Saturday morning, and then on the evening 
before Katrina made landfall, that Sunday, the Department of 
Homeland Security circulated to Federal agencies sitting in the 
Homeland Security Operations Center a report that the storm had 
at that time been upgraded to Category 5 and that ``any storm 
rated Category 4 or greater will likely lead to severe flooding 
and/or levee breaching. This could leave the New Orleans metro 
area submerged for weeks or months.''
    Among the offices receiving that memo was the White House 
Situation Room, which received it at 1:47 a.m. on Monday, 
August 29, several hours before Katrina made landfall. What 
happened to that report and the other awareness that FEMA 
officials and others at DHS had of the severity of the coming 
storm? Why was the President of the United States left so 
uninformed that he said 3 days later, ``I don't think anyone 
anticipated the breach of the levees.''
    At this point, we cannot answer that critical question 
because the White House has produced just a very small portion 
of the documents we requested. In addition, they have opposed 
efforts to interview White House personnel and they have 
hindered our ability to obtain information from other Federal 
agencies regarding White House actions in response to Katrina. 
I have been told by my staff that almost every question that 
has been asked Federal agency witnesses regarding conversations 
with or involvement of the White House has been met with a 
response that they could not answer on direction of the White 
House. There has been no assertion of executive privilege; just 
a refusal to answer questions.
    Indeed, as recently as yesterday in his staff interview, 
that is, interview with our staff, former FEMA Director Michael 
Brown's agency lawyers advised him not to say whether he spoke 
to the President or the Vice President or comment on the 
substance of conversations he had with any other high-level 
White House officials. This assertion of a kind of virtual 
immunity of the White House from this inquiry has obviously 
frustrated our Committee's ability to learn and tell the full 
story of Katrina. In my opinion, it is unacceptable.
    While some agencies like FEMA, and I want to stress this, 
have been very cooperative, other executive agencies, including 
the Department of Justice and the Department of Health and 
Human Services, have essentially ignored our document and 
information requests for months and to this day have produced 
much less than half the information we asked for. HHS has 
produced not a single requested witness for an interview, and 
the Department of Homeland Security, which is at the center of 
our investigation because it has overall responsibility for 
national disaster preparedness and response, including in 
Katrina, has produced too little, too late. Repeated requests 
for critical witnesses and documents have been ignored or 
delayed.
    My staff on this investigation believes that the Department 
of Homeland Security has engaged in a strategy of slow walking 
our investigation in the hope that we would run out of time to 
follow the investigation's natural progression to where it 
leads. I hope they are wrong, but at this time, I cannot 
disagree.
    Madam Chairman, I do want to thank you publicly for your 
continuing efforts to elicit more cooperation from the 
Administration. I hope the Committee will continue to pursue 
all these unanswered questions asked of the Executive Branch 
until we have the information we need to answer the questions 
that must be answered. In the meantime, because hurricane 
season begins again in June and the threat of terrorist attacks 
persists, and because our staffs together, notwithstanding the 
difficulties I have described, have done some excellent 
investigative work, these hearings are ready to go forward and 
must go forward and the Committee's report must be written as 
soon as possible to help American Government be better prepared 
to protect America's people from disasters that history tells 
us will come, disasters that are natural or unnatural.
    In that spirit and with thanks to you, I look forward to 
today's witnesses and those that follow in the 3 weeks ahead. 
Thank you.
    Chairman Collins. Our four witnesses today represent State, 
local, and Federal Government, as well as the private sector 
entities most involved in the development of the Hurricane Pam 
exercise. Wayne Fairley is the Response Branch Chief for FEMA 
in Region VI, I believe it is. As such, he oversees regional 
operations, logistics, and planning. He has served with FEMA 
for 24 years. Before that, he served in the Louisiana State 
Government. He was involved in discussions of a federally -
funded catastrophic plan for Southeastern Louisiana since 1999 
and was involved in designing, planning, and the exercising of 
Hurricane Pam as a member of the steering committee.
    Sean Fontenot was in charge of the planning at the 
Louisiana Office of Homeland Security and Emergency 
Preparedness in the late 1990s when the concept of a federally 
unded exercise to plan for a catastrophic hurricane was first 
discussed. In May 2005, he joined the Innovative Emergency 
Management Company as an emergency planner.
    Jesse St. Amant is the Director of the Plaquemines Parish 
Office of Homeland Security and Emergency Preparedness. He is 
also the President of the Southeastern Louisiana Hurricane Task 
Force. He participated in the Hurricane Pam exercises and the 
follow-up meetings in 2005.
    Madhu Beriwal is President and CEO of Innovative Emergency 
Management, Incorporated. IEM is a Baton Rouge-based research 
company that works with emergency managers in the public and 
private sectors to develop and improve their emergency 
preparation and response capabilities. IEM led a team of three 
firms that developed the Hurricane Pam scenario under contract 
with FEMA.
    I want to welcome all of you to the Committee today. We 
very much appreciate the cooperation you have already given us, 
and we will begin with Mr. Fairley.

   TESTIMONY OF WAYNE FAIRLEY,\1\ CHIEF, RESPONSE OPERATIONS 
  BRANCH, RESPONSE AND RECOVERY DIVISION, REGION VI, FEDERAL 
       EMERGENCY MANAGEMENT ADMINISTRATION, DENTON, TEXAS

    Mr. Fairley. Good morning, Madam Chairman and Members of 
the Committee. I am honored to appear before you today to 
discuss this subject and to further any discussions I have had 
with your various staff over the past week and to answer any 
questions you may have.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fairley appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    To start off with, I believe it is best to provide a little 
historical background on the Hurricane Pam exercise. As I 
recall FEMA's goal based on the 2003 Catastrophic Initiative 
was to identify areas of the country that could be vulnerable 
to catastrophic disasters and in cooperation with the relevant 
State and local governments to examine projected damages and 
effects associated with catastrophic disasters, confirm current 
disaster response capabilities, identify anticipated response 
shortfalls, and to initiate comprehensive planning strategies 
to address these shortfalls. Products developed under the 
Catastrophic Planning Initiative were envisioned to include 
incident-specific response plans for pre-selected geographic 
regions and disasters, planning templates that could be applied 
to other areas, and new response contingencies.
    In late March 2004, FEMA headquarters notified FEMA Region 
VI that the State of Louisiana had been funded for a 
catastrophic hurricane plan. Thirteen Southeastern Louisiana 
parishes, including the City of New Orleans, were selected as 
the initial geographic focus for FEMA's Catastrophic Planning 
Initiative because of their vulnerability to hurricane 
disasters. This resulted in the Southeast Louisiana 
Catastrophic Hurricane Planning Project. The initial concept 
was to have a draft plan by the end of July 2004.
    The Southeast Louisiana Catastrophic Hurricane Planning 
Project was designed to bring together responders and 
decisionmakers from all levels of government and the American 
Red Cross to begin analyzing and addressing the overwhelming 
operational complexities that would be involved in responding 
to a catastrophic hurricane striking Southeast Louisiana. 
Accepting the fact that only limited funding and time were 
available, topic-specific planning workshops using a 
catastrophic hurricane scenario called Hurricane Pam to frame 
these discussions were selected as the best approach for 
identifying and qualifying the scale of requirements needed to 
build a plan for responding to a catastrophic hurricane. The 
results were intended to reveal to the Louisiana Office of 
Homeland Security and Emergency Preparedness and FEMA the 
shortfalls in existing plans and to begin developing additional 
plans for catastrophic hurricane response.
    Existing plans, strategies, policies, and capabilities were 
reviewed by LOHSEP before the first workshop. As preplanning 
for the first workshop conducted in July 2004, the Louisiana 
Office of Homeland Security and Emergency Preparedness and 
Federal representatives identified a list of planning topics 
based on those provided by the State of Louisiana as the most 
urgent or complex topics needing discussion, to include 
hurricane pre-landfall issues, search and rescue, temporary 
medical care, sheltering, temporary housing, schools, and 
debris.
    During the first workshop, participants were presented with 
a catastrophic hypothetical Hurricane Pam disaster scenario to 
frame discussions and then divided into breakout groups by 
responsibilities and topic for detailed discussions. The 
breakout groups identified operational concerns in each of the 
topical areas, addressed issues, and drafted plans for dealing 
with the identified concerns. To address other urgent subtopics 
that emerged during the discussions, additional breakout groups 
were established. The following additional subtopics were 
discussed: Access control and reentry; billeting of Federal 
response workers; distribution of ice, water, and power; 
donations management; external affairs; hazardous materials; 
transition from rescue to temporary housing; and unwatering of 
levee enclosed areas.
    It became clear after the first workshop that a series of 
workshop cycles would be needed to address the full range of 
complex response and recovery concerns associated with this 
type of catastrophic event. Additional workshops were held in 
November 2004, July 2005, and August 2005 to provide further 
input for topics. Topics selected for further discussion during 
the subsequent workshops included the following. In November, 
sheltering, temporary housing, and temporary medical care. In 
July, transportation, staging, and distribution of critical 
resources and temporary housing. And in August, temporary 
medical care.
    The goal of the Southeast Louisiana Catastrophic Hurricane 
Planning Project was to begin addressing immediate, 
intermediate, and long-term needs; create plans immediately 
usable by planners and responders in the field; and to seed the 
eventual development of a comprehensive and systematic 
operational plan The ultimate goal is for the concepts 
identified in the Southeast Louisiana Catastrophic Hurricane 
Planning Project to be integrated into a final catastrophic 
plan. The project did not result in a catastrophic planning 
document per se, but rather a framework for developing such a 
plan.
    My participation in the process included working with the 
Louisiana Office of Homeland Security and Emergency 
Preparedness counterpart as a member of the steering committee. 
That involved project management, workshop design and 
participation, budgeting, and headquarters and contractor 
interface. At the workshops, this included monitoring the 
workshop sessions; providing FEMA law, regulation, and policy 
information; dispute resolution; and overall directional 
guidance in meeting our workshop objectives.
    Participation included the Louisiana Office of Homeland 
Security and Emergency Preparedness, State emergency support 
functions, local emergency management staff from the 13 
Southeast Louisiana parishes, FEMA Region VI, FEMA 
headquarters, FEMA emergency support functions, other Federal 
agencies as requested, and private industry partners.
    Areas of responsibility were assigned in the workshops 
according to existing State and Federal laws, regulations, 
policies, procedures, and plans. No planning effort was made to 
recreate or modify any existing authority. Directed or 
institutional agency authority on any given subject area was 
only reviewed and used as guidance by the planning session 
participants. However, participants were able to comment and 
provide opinions on existing State and Federal laws, 
regulations, policies, procedures, and plans and the possible 
need for future changes. Two such State plans included the 
Louisiana Hurricane Evacuation Plan and the Louisiana 
Sheltering Plan.
    These planning sessions laid the groundwork for future 
detailed subject plans. They identified the primary areas of 
concern by the local, State, and Federal agencies and began the 
process of identifying who would address these areas and how 
they would be addressed. These sessions brought together 
persons responsible for the implementation of emergency 
management from all levels of government and helped lay a 
groundwork of cooperation that had never existed before.
    Future intentions were to include continued subject-
specific sessions. Some topics were to be expanded. Some topics 
would be added. Some topics would only be maintained with 
updated data. It was our hope that the plan would not end or 
become stagnant but would continue to be a fresh and growing 
plan that included new data and innovative ideas. It was also 
hoped that the new-formed working spirit between local, State, 
Federal, and private industry would continue to grow and lead 
to a concept of ``ours'' versus yours or mine.
    Although the catastrophic planning process has been 
interrupted by the impacts of Hurricanes Katrina and Rita, the 
workshops and planning process--knowledge of inter-
jurisdictional relationships and capabilities, identification 
of issues, and rudimentary concepts for handling the 
consequences--have been quite beneficial to all involved in the 
hurricane response.
    I know that this Committee and others are concerned about 
what occurred as a result of Hurricane Katrina in Louisiana, 
and I want to assure this Committee that all of my fellow 
employees at FEMA are also concerned. I want to assist this 
Committee in any way I can in ensuring that what occurred never 
happens again. I want to thank the Members of this Committee 
for their past support of FEMA and appreciate the opportunity 
to testify before you today.
    Chairman Collins. Thank you, Mr. Fairley. Mr. Fontenot.

   TESTIMONY OF SEAN R. FONTENOT,\1\ FORMER CHIEF, PLANNING 
DIVISION, FORMER CHIEF, PREPAREDNESS DIVISION, LOUISIANA OFFICE 
 OF HOMELAND SECURITY AND EMERGENCY PREPAREDNESS, BATON ROUGE, 
                           LOUISIANA

    Mr. Fontenot. Thank you. I would like to thank the 
Committee for inviting me today to speak on the events of the 
planning exercise known as Hurricane Pam as part of the 
Southeast Louisiana Catastrophic Planning Project. With this 
event, we began the process of trying to fully understand and 
prepare for the effects of a catastrophic hurricane hitting 
Southeast Louisiana. These remarks are a synopsis of the 
prepared testimony I have already submitted to the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fontenot appears in the Appendix 
on page 47.
---------------------------------------------------------------------------
    In 1998, the Louisiana Office of Emergency Preparedness, 
now known as the Louisiana Office of Homeland Security and 
Emergency Preparedness, realized after Hurricane Georges that 
more planning was needed for post-landfall consequences after a 
major hurricane. A working group was convened consisting of 
Federal, State, and local participants to brainstorm the issues 
that Louisiana would be facing if a Category 3 or higher storm 
ever hit Southeast Louisiana. This work and a later meeting 
held in New Orleans in 1999 led to the development of a white 
paper, which outlined the planning proposal that was submitted 
to FEMA in August 2000 and then again in August 2001, asking 
for FEMA's help in planning and preparing for a catastrophic 
hurricane that could hit Southeast Louisiana.
    In August 2001, FEMA headquarters awarded a contract to URS 
Corporation for catastrophic planning support. However, due to 
the events of September 11, 2001, there were many delays. In 
December 2001, a kickoff organizational meeting was held in New 
Orleans with FEMA headquarters, FEMA Region VI, and LOEP to 
organize this planning process. In January 2002, FEMA 
headquarters informed the State and Region VI that there would 
be no further funding for this project due to budget 
shortfalls. Following Hurricane Lili, the process was revived 
again for a short period in December 2002, but it also ended 
unsuccessfully.
    In September 2003, there was a conference call with FEMA 
Region VI and FEMA headquarters to discuss the catastrophic 
planning. This led to a meeting on November 18, 2003, in New 
Orleans on this subject. Attending this meeting was a 
representative from the President's Homeland Security Advisory 
Council. At this meeting, LOHSEP and FEMA Region VI briefed the 
need for catastrophic planning, and he was astonished that as 
of that date, we had not completed this type of plan and 
promised to do what he could to help us get further funding for 
the planning process.
    This brings us to the Southeast Louisiana Catastrophic 
Planning Project. On March 17, 2004, FEMA headquarters called 
FEMA Region VI and the State of Louisiana and informed us that 
there was funding for catastrophic planning. The very next day, 
LOHSEP and FEMA Region VI organized the Unified Command and 
steering committee. Later, a representative from FEMA 
headquarters was also added to the steering committee, as well. 
The concept was presented and approved by the Unified Command.
    On April 7, 2004, another meeting was held during the 
National Hurricane Conference in Orlando, Florida, to discuss 
the concepts with representatives from FEMA headquarters and to 
request that FEMA find a contractor to support this planning 
process.
    On May 19, 2004, I was at FEMA Region VI working on the 
details of the proposed exercise. We were informed by FEMA 
headquarters that they intended to award the contract to IEM to 
support this planning project.
    From the word ``go,'' it was understood that this was not a 
typical exercise. In fact, when the concept was first given to 
me that we were going to have an exercise to develop a plan, I 
immediately disagreed. Usually, you write a plan and then have 
an exercise. However, when it was explained to me that we were 
going to take an exercise scenario which generated real 
consequences and real data and bring operational level people 
in so they could make decisions using the real data and 
consequences which could then drive the writing of a plan, I 
quickly got on board. I championed the fact that we were using 
operational people to write this plan because there are too 
many times a plan is written without taking the operational 
aspects into account and this leads to non-usable plans.
    We initially met the contractor, IEM, at FEMA Region VI on 
May 20. At this meeting, we presented the exercise concept to 
IEM, and I pointed out, and FEMA Region VI agreed, that we had 
to work as a team and stick to our game plan to get this event 
accomplished in the time period available. We only had 53 days 
to put together something that would normally take 6 months to 
a year, and we couldn't push it back any further because August 
and September are the hot months for hurricanes in the Gulf.
    We tried to involve local emergency managers as much as we 
could. For instance, when IEM developed a set of consequence 
estimates, the planning committee would meet with and poll 
local emergency managers to include them in the planning 
process from the beginning.
    The Hurricane Pam exercise ran from July 16 to 23. On a 
typical day, the main exercise had six breakout rooms which had 
the same assigned topics for the entire week. Then we had three 
action rooms which were assigned topics on a day-to-day basis. 
Each day, the breakout rooms were responsible for writing a 
certain portion of the action plan based on the template that 
we had agreed upon with FEMA Region VI and LOHSEP prior to the 
event. The contractor had a facilitator and a recorder in every 
room to make sure that the room completed its task for the day. 
Also assigned to each room was a Federal and State lead who was 
responsible for briefing the Unified Command on a day-to-day 
basis. This process lasted for 5 days.
    FEMA Region VI and LOHSEP expected that the action rooms 
would only produce the beginnings or the framework of a plan 
that would have to be fleshed out later. The breakout rooms 
were expected to produce more of a complete plan. However, we 
also knew that the breakout rooms would not develop a 100 
percent answer.
    Since this was not a standard exercise, there was no formal 
evaluation process. As I mentioned previously, this is an 
exercise designed to develop a plan, not test a plan. In my 
opinion, the exercise was very successful, not because it 
developed the perfect plans, but because it brought 
operational-level players to the table to begin the planning 
process. We never expected to come up with a 100 percent 
solution. It was always felt that if we had a 70 percent start, 
that we would be successful.
    The scenario-based planning exercise, in my opinion, has 
produced the foundation of a very successful plan. However, due 
to the funding and time constraints, we had to be very 
selective about the topics covered during the main exercise and 
during the follow-on exercises.
    The planning committee developed a scenario to show that it 
did not take a Category 4 or 5 hurricane to cause catastrophic 
damages in Southeast Louisiana. The National Weather Service 
Southern Region helped in the development of the weather 
scenario for Hurricane Pam. I wanted a slow-moving Category 3 
hurricane that overtopped the levees of New Orleans, and the 
National Weather Service, working with the other NOAA partners, 
came up with the exact track and characteristics of the storm. 
The overtopping of the levees was included to cause the 
catastrophic flooding conditions from the storm surge.
    The contractor was responsible for development of the 
consequences based on the storm scenario that the National 
Weather Service developed. All consequences were reviewed by 
the planning committee and the Unified Command. In addition, 
certain consequences were reviewed by the parish emergency 
management officials. This was to ensure the believability of 
the consequences and to get buy-in from the local emergency 
management officials. We knew that if the consequences weren't 
believable, then the focus of the players during the exercise 
would be on disputing the consequence numbers and not on 
developing the plans.
    One of the primary things LOHSEP recognized at the 
conclusion of the exercise was that we needed to update our 
State Emergency Operations Plan to reflect the Federal Response 
Plan, now known as the National Response Plan. Essentially, we 
changed our State plan from a functional format to the 
Emergency Support Function, ESF, format, including the 15 ESFs 
associated with the National Response Plan. In this process of 
updating the plan, all function areas with the exception of one 
remained with the existing State agency that had been 
responsible for the function prior to the plan update, with the 
exception of the ESF-1 transportation, which was moved from the 
National Guard to the Louisiana Department of Transportation 
and Development. The final result of the plan update was that 
we had equivalent agencies at the State level talking to their 
Federal counterparts.
    Initially, LOHSEP proposed to FEMA that we have a second 
major planning event like the Hurricane Pam exercise to focus 
on some of the areas that we did not get covered during the 
first exercise. It became clear after the first follow-on 
workshop that there would not be another large exercise due to 
funding. Therefore, FEMA Region VI and LOHSEP decided to use 
the second follow-on workshop to focus primarily on 
transportation, staging, and distribution of critical resources 
because it affected all the other plans in one way or another. 
Although I came to work for the Hurricane Pam exercise 
contractor, IEM, I recused myself from the Hurricane Pam 
follow-on activities due to my previous State responsibilities 
in line with counsel I received from the Louisiana State Ethics 
Board.
    In spite of the funding, scheduling, and policy changes we 
faced with the Southeast Louisiana Catastrophic Planning 
Project, I felt that we had started down the right path. We 
still had a way to go, but we were heading in the right 
direction. It is my opinion that the scenario-based planning 
activities like Hurricane Pam are the way to go when trying to 
formulate plans to deal with catastrophic events. The realism 
that is brought to the table during these events really makes 
the planning feel more urgent.
    I would like to thank the Committee once again for hearing 
my testimony.
    Chairman Collins. Thank you. Mr. St. Amant.

 TESTIMONY OF JESSE ST. AMANT,\1\ DIRECTOR, OFFICE OF HOMELAND 
   SECURITY AND EMERGENCY PREPAREDNESS, PLAQUEMINES PARISH, 
                           LOUISIANA

    Mr. St. Amant. Good morning, Madam Chairman. Thank you for 
having me here today. I certainly appreciate the opportunity to 
speak before you and this group. Certainly, I would really like 
to thank you, as well, and your staff. They have really done a 
terrific job.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. St. Amant appears in the Appendix 
on page 56.
---------------------------------------------------------------------------
    When I look at my notes and my statement I wanted to make, 
you two have covered it. I pray that someone is listening. The 
voices in the wind for too long have been out there. Time and 
again, we have expected and hoped that someone would hear our 
plea.
    Mr. Fontenot just described to you something that I have 
here, a stack of documents going back, just these, from 1993 to 
current, and there are a lot more, telling of the horror 
stories that you have seen, and I really appreciate the fact 
that you have seen it because it is beyond description of what 
we are dealing with. So let me encourage you and the people in 
this great hall of justice that we are in, don't forget us. 
This is just the beginning. The horror story is not what has 
happened, it is what is still happening and continues to 
happen. I am going to get to that later.
    Let me reassure and reaffirm some of the things that you 
have made known. Fair warning--Mother Nature has given us fair 
warning, and we have tried, as Sean said, to echo that. I 
remember telling, as the President of the Southeast Hurricane 
Task Force, stating this. If there is any significant loss of 
life, I would be the first to volunteer before any 
Congressional hearings, as I figured there would be some, 
because the fatality count could have been 100,000, not under 
1,200. So for me, the Hurricane Pam exercise was really a 
success story because some of the lessons gleaned from that 
were some of the issues that we took back to our local 
jurisdictions to assist us in evacuation. Some of the things 
that we took back, we couldn't do alone, which is the reason I 
stated I would be glad to testify before anybody because we 
needed the continuing support to have a Pam exercise, and my 
group of directors representing Southeast Louisiana and some 15 
jurisdictions had to beat on the desk a little bit to make sure 
that it would be funded because someone didn't think that it 
was important.
    Well, in any case, we got it done, but Mother Nature has a 
sick sense of humor. She showed to us that I will hit you 
before you are ready. I hear this diatribe about 50-foot levees 
or what they call Category 5 levees that are being planned or 
being cried for and being asked for. My experience in emergency 
management tells me this. You build a 20-foot levee, Mother 
Nature will give you a 25-foot storm surge. The maximum 
envelopes of water, the loss of the wetlands, we can blame 
everything and his brother for what has happened, but the fact 
of the matter is, due to the soil subsidence, due to the loss 
of our wetlands, we knew in this business that this was coming. 
We tried to say the words, this is coming, time and again.
    One of the documents I wanted to show you today was this 
one, dated 1994. It gives you the exact scenario of the worst 
case scenario that could happen. It was never a case of if, it 
was a case of when. This document from the Government 
Accounting Office tells you what is going to happen.
    But the fact of the matter is that due to the Pam exercise, 
we really got a little bit better about getting some people out 
of harm's way. I would hate to think what would have happened 
had it not been. Maybe the fatality counts, as I said, would 
have been greater.
    Dr. Bob Sheets, former Director of the National Hurricane 
Center, gave this warning. I also happen to have this on video. 
New Orleans is the worst case scenario in the continental 
United States, surrounded by water, at or below sea level, 1.6 
million people, with lack of infrastructure to evacuate in a 
timely manner. I submit to you that is not my only concern for 
hurricanes, something that we may have 2 or 3 days to see and 
to prepare for and respond to or evacuate from. My concern is 
what happens if we have some other type of event that doesn't 
have that much notice, maybe a chemical spill that we may have 
to evacuate people in the short term.
    These are the considerations, and let me say one other 
thing further. Let us suppose Miami, Houston, Washington, DC. 
We are talking about the Hurricane Pam exercise that was 
supposed to raise the awareness level of a major catastrophic 
event happening in any major city, not just New Orleans.
    Folks, we were lucky. There are some things that I am going 
to recommend, some of which is, if it is not broken, don't fix 
it. My fellow directors from the State of Louisiana have always 
said, FEMA used to be a good organization, but somebody decided 
we were going to put it under Homeland Security, for whatever 
reason. Personally, I feel that the Federal Coordinating 
Officer, and the Defense Coordinating Officer, the State 
Coordinating Officer, working together, can resolve most of the 
problems. I remember some of our response that we did for the 
Andrew situation--I had been there a few years--and I thought 
they were very good because you had the right people, the 
communications, and the coordination.
    But the fact of the matter is, when you build top-down 
approach, you have got people in cubicles at the top giving 
directives to very few at the bottom. Nothing happens. If you 
get people who don't listen to the warnings that we are trying 
to say and they go unheeded, then nothing happens.
    So I believe in us being more proactive than reactive. I 
believe in us doing what needs to be done, and if you want to 
find out, ask the people who were involved. I think this is why 
I admire your tenacity in searching and seeking the people who 
should know what this is all about.
    Let me assure you of one thing. We will recover and this 
will happen again. Will we be prepared? I submit we need to 
lead, follow, or get out of the way, and I submit that for a 
simple reason. The loss of life this time was just a wake-up 
call. As sad and tragic as it is, this was not a direct hit. 
This was a glancing blow. If the eye wall of the hurricane had 
been 12 miles further west, I would not be here giving this 
testimony and a lot of other people wouldn't be on the face of 
the earth. The fact of the matter is, this glancing blow did 
cause some overtopping and some levee failures, but the City of 
New Orleans would look like the lower part of Plaquemines 
Parish, where nothing would exist, had it crossed over the City 
of New Orleans.
    The gallant response, the efforts that were made were 
hindered by the lack of communication, the lack of coordination 
and damage assessment. No one ever anticipated that 100 percent 
of the communications that we had--if you can't communicate 
what your problems are, if you can't reach out, then your 
response is hindered. I had people 3 weeks after the storm that 
were amazed to find out that I was still alive because I 
couldn't communicate. When we finally had satellite phones 
delivered to us by the State, they were of no use because they 
wouldn't work.
    I think the President has acknowledged that communications 
interoperability has got to be the most important essence of 
our response and recovery and preparation. I happen to agree 
with that. When you don't have anything, and two tin cans and a 
string doesn't cut it and carrier pigeons, as the former 
director used to say, don't want to fly in bad weather. It is 
tough to cry, I need help, when no one hears you.
    Again, I want to wish you luck and continuance on your 
endeavor to try to reach a conclusion, and I just hope someone 
will listen to what is being said here. This is an opportunity 
to go forward and to make sure that the next time it happens, 
as it will, we will be better prepared. I thank you for this 
opportunity.
    Chairman Collins. Thank you. Ms. Beriwal.

 TESTIMONY OF MADHU BERIWAL,\1\ PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, INNOVATIVE EMERGENCY MANAGEMENT, INC., BATON ROUGE, 
                           LOUISIANA

    Ms. Beriwal. Madam Chairman, Senator Lieberman, Members of 
the Committee, thank you very much for the opportunity to 
testify in front of you on catastrophic planning for Southeast 
Louisiana, called Hurricane Pam.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Beriwal appears in the Appendix 
on page 58.
---------------------------------------------------------------------------
    A lot of the points that I was going to make, the previous 
witnesses have already mentioned those, so I won't belabor you 
with those issues. I want to start by making, first of all, a 
distinction between what Hurricane Pam was and was not. There 
has been a lot of confusion and chaos about what Hurricane Pam 
was and wasn't.
    First of all, if you go back to traditional emergency 
planning, in traditional emergency management, you have 
essentially a quality cycle that starts with planning. You 
prepare a plan. Those plans are generally prepared by either 
one person or a small committee of five or six people. It takes 
6 to 12 months to prepare a plan. And then you take that 
training, and all of the people with primary responsibility for 
execution of the plan go through a training cycle. That might 
take another 12 months or so to do. And then you have an 
exercise. Planning for the exercise generally takes 6 to 12 
months to execute. You have an exercise for a few days, and 
then your report might come out as soon as 2 or 3 months after 
the exercise or sometimes as long as a year after the exercise. 
This whole quality cycle takes somewhere between 2\1/2\ and 
4\1/2\ years, depending on the complexity of the topic and the 
complexity of the region that is involved.
    This is not what Hurricane Pam was. Even though Pam was 
called an exercise, it was not a traditional exercise in the 
sense that there was a plan in place and that we were going to 
exercise the plan. I don't mean to imply that there were no 
plans in place. The 13 Southeast Louisiana parishes that 
participated in Hurricane Pam all had emergency operations 
plans. Several of them had hurricane plans. The State of 
Louisiana had plans. There were 20 State agencies involved. 
Many of them had emergency operations plans in place. And, of 
course, the National Government had the Federal Response Plan 
when we started and the National Response Plan further on into 
the process. So everybody had legally constituted plans.
    The effort for Hurricane Pam was to create a bridging 
document between all of these local plans, the State plans, and 
the National Response Plan. This is a term that was used widely 
during Hurricane Pam in the many workshops we conducted, is to 
create a bridging document that will be addressing just 
catastrophic events.
    Most plans deal with a gamut of hazards, everything from 
chemical spills, radiological events, hurricanes, floods, and 
tornadoes. The intent of Hurricane Pam was to create a plan for 
a catastrophic event, a specific event. As some of the previous 
witnesses have testified, the intent was to create a sense of 
reality. When we were working with this project, we were trying 
to describe a worst case but plausible event. That is the 
slogan that we had. It has to be plausible because it was very 
important that the exercise not degenerate into questioning the 
data on the basis of which of the plans would be developed.
    We started on May 24, 2004, when we were awarded the 
contract. Actually, we had verbal notice to proceed from FEMA 
earlier than that, and we met with the FEMA Region VI and 
LOHSEP in Denton, Texas, to plan out this exercise. We had 53 
days to put an event together of considerable complexity and 
magnitude. We understood that, but we were dedicated to making 
the Hurricane Pam workshop a success.
    It was an 8-day exercise, and in the 53 days prior to the 
event, we cascaded from the slow-moving Category 3 storm that 
you, Madam Chairman, mentioned and that was briefed by the 
National Weather Service. We took the data from the National 
Weather Service and their slosh model and predicted a series of 
consequences. I would like to tell you some of these 
consequences and compare them to Katrina. I know that there has 
been a lot of discussion about how similar these consequences 
were.
    We added 20 inches of rain into Hurricane Pam prior to the 
event to create catastrophic conditions both from storm surge 
and from rain. As you might know, nine of 10 deaths that occur 
in hurricanes are due to storm surge and due to drowning from 
rain and storm surge. So we wanted to create 10 to 20 feet of 
water in the City of New Orleans, which would constitute a 
catastrophic scenario for Southeast Louisiana.
    We overtopped the levees. We did not breach them. We also 
looked at the Louisiana offshore oil port, and as you know, 
Senators, the significance of that oil port is that it handles 
12 percent of the crude oil of the United States, and that LOOP 
port would close prior to the storm and would come back 2 or 3 
days after the storm.
    To give you comparable data for these consequences, in 
Hurricane Katrina, there was actually 18 inches of rain. The 
levees were overtopped as well as breached in places. Louisiana 
Offshore Oil Port (LOOP) did close for 5 days before and after 
the storm.
    We predicted that nine refineries would shut down during 
the storm. Actually, seven refineries shut down. We predicted 
that 57 chemical plants would be flooded and shut down. Over 50 
plants were flooded and shut down.
    We predicted that 1.1 million people would be made homeless 
from the storm. The actual number is about 1 million.
    We expected that Leeville Bridge on Louisiana Highway 1 to 
the west of the city would collapse, since we had the track of 
the hurricane on the west of the city putting the northeast 
quadrant, which is the most damaging part of the storm, 
directly over the City of New Orleans. In fact, the New Orleans 
Twin Span bridge collapsed to the east of the city since the 
storm track of Katrina was to the east.
    We expected that 786,359 people would lose electricity at 
the initial impact; 881,400 people actually lost electricity 
after impact.
    We predicted that there would be 12.5 million tons of 
debris that would be generated. The estimates right now are 
that there are 22 million tons of debris, 12 million tons just 
in the City of New Orleans itself.
    We predicted that there would be extensive coastal marsh 
erosion. The initial indications are that Louisiana lost a 
year's worth of coastal marsh erosion in the one day of 
Katrina's impact. Just so that you understand what the 
significance of that is, in the 33 minutes since the start of 
this briefing, an area the size of the greater Washington, DC, 
area disappeared in Louisiana, and it is continuing to 
disappear at the rate of 25 square miles a year.
    We also said the sewage treatment facilities would not work 
in the metropolitan area, which is exactly what happened in 
Katrina since they are powered and the power would be lost.
    We expected that 233,986 buildings would collapse and 
250,000 homes are considered to be destroyed from Katrina.
    We expected that 15 percent of the 13 parish hospital 
supply would be affected and some of it would be completely 
destroyed. At present, there is no medical system available in 
the City of New Orleans for those that are not insured.
    We expected that there would be $40 billion in damages to 
commercial and residential structures in Louisiana, and the 
Insurance Institute has estimated that the damage to commercial 
and residential structures is between $20 and $65 billion.
    We expected that there would be 61,290 deaths. Fortunately, 
we were wide off the mark on that one. At present, we have 
1,100 people known to have died in Louisiana. Another 3,000 to 
4,000 are still missing and not presumed dead as yet.
    I would like to move away from the consequences, but just 
in closing on that particular topic mention that developing 
these consequences was very important. We wanted to create a 
sense of urgency. We wanted to create a sense of realism in the 
exercise which generally does not inform a planning process 
when you are dealing with emergency planning. Because we are 
all mortal beings, we don't like to look at the face of death 
and disaster, and most planning tends to look at the event that 
you can manage, not the events that you can't manage. The 
Hurricane Pam exercise was designed with detailed consequences 
down to the parish level for each of these data elements. We 
actually had data on how many people would be affected by 
parish so that each of the individual parishes and the State 
and FEMA would have tactile information at their fingertips 
that they could use in planning.
    How much of that got used? I know there has been a lot of 
confusion on this topic, too. It seems from some of the reports 
that Hurricane Pam did not have any effect. I would beg to 
differ. We did have a lot of effect, and I will further on talk 
a little bit about what I think we could have done better.
    Talking about the things that got used in Katrina, first of 
all is the response rate. In Hurricane Pam, we projected that 
36 percent of the 1.9 million people, that is 1.7 million 
residents of Louisiana and 200,000 tourists, would actually 
evacuate. That is 36 percent of 1.9 million people. That would 
have left a considerable number of people in the 13-parish 
area. Why did we project such a low number? Because history has 
indicated from Hurricane Georges in 1998, Hurricane Ivan in 
2004, as well as prior storms, that not enough people leave in 
the face of a storm.
    In Hurricane Katrina, now I am going to give you 
information that is not scientifically validated as yet, but at 
least indications are that 80 to 90 percent of the people in 
the 13-parish area left that region. That is equivalent to 
ringing the bell in emergency management in terms of evacuation 
for a large metropolitan region. It has not occurred before. 
The most validated information on prior storms where there has 
been a high rate of evacuation was Hurricane Hugo, where 81 
percent of the people evacuated in the face of that storm.
    I think most of the credit for that goes to the National 
Weather Service, Dr. Mayfield at the National Hurricane Center, 
and the media for publicizing the impending storm. But I think 
that we can take a small measure of comfort in the fact that 
some of the actions of the State, Federal, and local officials 
were motivated by the high casualty count of Hurricane Pam and 
the consequences projected in this particular planning 
exercise.
    We also developed a search and rescue process called the 
lily-pad operation where people would essentially be plucked 
from the flooded areas, brought to the land-water interface, 
and from there they would be taken by another set of people to 
the shelters or to medical facilities where they would be 
treated or taken care of. And when I say ``we,'' I mean the 
participants of Hurricane Pam and IEM. We did not see a 
division between the company and the customers that we serve. 
So this was brought up by the participants. They developed this 
concept. You saw that on CNN and FOX News during Hurricane 
Katrina operating to save lives.
    In the data that they are gathering right now post-
Hurricane Katrina to compare Hurricane Pam and Hurricane 
Katrina consequences, we think that somewhere between 60,000 
and 100,000 people went through the search and rescue method 
where they were rescued from rooftops and from flooded 
buildings and brought using the lily-pad method.
    Another issue that I wanted to mention is the TMOSA, which 
is the Temporary Medical Operations Staging Area. Those were 
effectively used in Katrina. We had predicted that there would 
be three needed. Three of them were operational, two real ones 
at LSU and Nicholls and then the other one was actually the New 
Orleans Airport, which effectively became a TMOSA.
    Let me close quickly and mention to you a few things that I 
think need to be done better. I have worked in emergency 
management and homeland security for 26 years now, and I think 
that we really need to look very carefully at how we do 
emergency management and homeland security. We are spending 
about $1 million a minute in homeland security and emergency 
management in this country. I think we need to demand better 
results.
    The first thing that I would mention is that we need to 
have an outcome-based emergency management homeland security 
process, something where elected officials can say, this is 
what I expect the outcome to be, and then emergency management 
and homeland security are tasked with delivering those 
outcomes. This is no different from the Government Performance 
and Results Act or the President's Management Agenda, which has 
been mentioned in the last several administrations. We need to 
apply the lessons of that management philosophy to emergency 
management.
    Second, I think that we need in emergency management a way 
to measure protection. We came up with a lot of innovations in 
Hurricane Pam. A number of them were used at a non-scientific 
count, but about 75 percent of those things got used in 
Katrina, yet the results were deemed unacceptable by the 
President, by the media, and by the American public. We need a 
way to calculate protection. I would not want to run my company 
without knowing what the profit and loss statement was. How can 
we run emergency management without knowing what level of 
protection we are providing?
    The third thing, we need a reliable and mature emergency 
management process, one that creates a professional discipline 
out of this field.
    And fourth, we need a way to do sustainable development in 
our community so that we do not have problems like coastal 
erosion and other such factors that affect the vulnerability of 
the region to natural as well as unnatural disasters.
    Thank you very much.
    Chairman Collins. Thank you.
    Mr. Fairley, I would like to start my questioning with you. 
Committee investigators were told by a former colleague of 
yours, Mark Wallace, who also worked on designing Hurricane 
Pam, that the effectiveness of the project was greatly 
diminished by the poor attendance of key decisionmakers, and I 
would contrast that to an exercise that Senator Lieberman and I 
observed last year called the TOPOFF exercise where the 
Governors of New Jersey and Connecticut and the Secretary of 
Homeland Security were directly involved in a scenario 
simulating a terrorist attack.
    Mr. Wallace told the Committee that had the Director of 
FEMA, the Governor of Louisiana, and the Mayor of New Orleans 
participated in the scenario, that binding agreements could 
have been reached, that there would have been a better 
understanding of the responsibilities of the entities and the 
plans they were to follow. Were efforts made to bring the high-
level key decisionmakers like the FEMA Director, the Governor, 
and the Mayor into this process?
    Mr. Fairley. I can only speak from the FEMA perspective. I 
will then let my colleagues answer for the State and local. 
When we put the, what we call the leadership committee or 
leadership group together, we extended an invitation for FEMA 
headquarters involvement. Naturally, we requested the highest 
level that we could get. I am not aware of what decisions were 
made as to who would attend. We did receive people from 
headquarters who were in lines that could make decisions and 
could make recommendations.
    I would never argue with anyone, the higher the person you 
have at your meeting, the less meetings you would probably need 
to have or the more decisions you could have made on the spot, 
but we felt comfortable with the leadership that came. I think, 
naturally, you would always like to have more, but we felt 
comfortable that the people there could relay back what they 
found, what they saw, and assist us in getting decisions made.
    Chairman Collins. Mr. Fontenot, in your testimony, you 
discussed talking about the need to improve planning in 
Louisiana way back in 1998. And during the next nearly 6 years, 
until the Hurricane Pam exercise was actually funded and took 
place, there was a lot of communication back and forth between 
the State and FEMA, and I have looked at the documents which 
present a very compelling case for the need for this kind of 
catastrophic planning.
    Could you give the Committee a better understanding of what 
happened during that 6-year period? Why did it take so long 
from when you first identified a very real and compelling need 
and the time that the exercise was actually held?
    Mr. Fontenot. First, I think that it is important to 
recognize and important to state that we weren't just sitting 
on our hands in that 6 years. I mean, we were actually doing 
planning on our own and with the local governments and with our 
State counterparts, trying to figure out some of the aspects 
that we knew that we could handle on our own.
    Second, I think that in my written testimony, and in my 
verbal testimony earlier, I talked about the different 
conference calls we had and the different meetings we had and 
some of the conversations that we had with FEMA, FEMA Region 
VI, and FEMA headquarters. It also needs to be pointed out that 
FEMA Region VI was always a very willing participant in anytime 
we went to FEMA headquarters to request funding for these 
exercises to take place and this planning event to take place.
    I know that on several occasions, my former Assistant 
Director of Emergency Preparedness came to Washington and met 
with Director James Lee Witt and then Mr. Allbaugh, requesting 
that we do this planning event. I know that the gentleman that 
had the position of Chief of Plans before I did, or Chief of 
Planning, Training, and Exercises, before I took over for him, 
I know that he spoke to Mr. Allbaugh about this planning cycle 
and the importance of it.
    I know that a lot of things that went on, I wasn't always 
at every meeting that was conducted and discussions of this, so 
I really can't answer what took so long other than we pushed as 
much as we could and pushed as much as we thought that we had 
the capital to push without really upsetting people for pushing 
too hard.
    Chairman Collins. Let me talk to you about the question 
that I asked Mr. Fairley. Do you think Hurricane Pam's 
effectiveness would have been improved if the Director of FEMA, 
the Governor of Louisiana, and the Mayor of New Orleans had 
directly participated in some of the simulation?
    Mr. Fontenot. Well, I think Wayne answered quite adequately 
about the Director of FEMA, so I will concentrate on the Mayor 
of New Orleans and the Governor. I can tell you that there was 
at least one briefing to the Governor's office prior to 
Hurricane Pam where the Director of Emergency Management for 
the State of Louisiana, which is the Adjutant General, was 
briefed and then he briefed the Governor's office. 
Unfortunately, there was a couple layers of management above 
me, so I really never--I never had any direct dealings with the 
Governor or her office, so I don't know exactly what the 
conversations were and what happened between them, the Adjutant 
General, and the Governor's office as far as inviting the 
Governor or her staff to the exercise. They were more than 
welcome to come, but I don't know what those dealings were. You 
would have to ask him.
    As far as the Mayor of New Orleans is concerned, we did 
invite the parish emergency managers from all 13 parishes in 
the Southeast Louisiana Task Force, and we invited them to 
bring whoever they wanted to bring with them. It was up to the 
emergency manager on who they chose to bring with them and who 
they chose not to bring with them. However, there was financial 
constraints, as well, and we had over 300 participants at this 
exercise. It needs to be pointed out that we were pretty much 
pushing the envelope of how many people we could have handled 
without going to an off-site place to hold the exercise, which 
we could have done, it just would have cost us some more money. 
So that is my answer.
    Chairman Collins. Ms. Beriwal, you testified that not 
enough people evacuate prior to a storm hitting an area, 
despite public officials urging it, despite even mandatory 
evacuations. Your scenario predicted that hundreds of thousands 
of individuals would not evacuate. Did it concern you, then, 
that pre-storm evacuation was excluded from the Hurricane Pam 
exercise, given that, as you said today, not everybody or not 
as many people as should evacuate do so?
    Ms. Beriwal. Pre-storm evacuation is actually a big 
problem. In a nutshell, the issue is that about 24 hours prior 
to landfall, there is a 50-50 chance that the storm is actually 
going to strike the region to which it is destined, and people 
make their own determinations. I would like to say that under 
carefully controlled circumstances, people do damn well as they 
please, and so each individual family and each individual 
person in an area decides whether they are going to evacuate or 
not evacuate.
    However, about 50 to 60 years of emergency management 
literature tends to indicate that people leave if they are told 
by credible local officials to leave. Since I have worked off 
and on with the City of New Orleans since the 1980s, they have 
never ordered a mandatory evacuation for the City of New 
Orleans until Hurricane Katrina. So you cannot have a high 
percentage of people leave unless you have a mandatory 
evacuation ordered by people that others recognize and who 
essentially stand up and say, ``I am the mayor or the parish 
president, and I order a mandatory evacuation of this area.''
    Chairman Collins. But if you could answer my question more 
directly, did you express concern when the State decided to 
exclude pre-storm evacuation from the exercise?
    Ms. Beriwal. No, I did not because for the longest time, at 
least in my knowledge, for the last 20 to 25 years, every 
exercise for hurricanes in Southeast Louisiana has focused only 
on the evacuation question, and Hurricane Pam was expected to 
be the first post-storm exercise to look at response post-
storm. So the fact that 3 days of the 8-day event were devoted 
to pre-landfall and 5 days to post-storm seemed like an 
appropriate thing to do.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. Thanks to the 
four of you. Your testimony has been very helpful, very 
troubling, I guess, insofar as you were all involved in an 
effort to get ready for what came in Katrina, and to some 
extent, I hear you saying it helped, but to a lot of other 
extent, it didn't put all those in government in a position to 
diminish even further the consequences of what happened.
    I think I will pick up, just so I understand exactly, where 
Senator Collins left off, which was this fact that--I will 
start with you, Mr. Fairley--while FEMA agreed to propose this 
exercise Pam in 2001, it doesn't get underway until 2004. In 
that time period, can you tell us, to the best of your 
knowledge, the reason for the delay?
    Mr. Fairley. Senator, the only logical reason I can give 
you is that there were not funds available.
    Senator Lieberman. Yes.
    Mr. Fairley. Not being part of the budgeting process in 
Washington, I am not familiar with all the little nuances. 
However, I know that if we propose a project and it is late in 
the fiscal year, the agency's budget generally has already been 
set and has worked its way through all the committees. So this 
request for project and project funding goes into the next 
budget cycle. So that could account for up to 2 years 
sometimes.
    Senator Lieberman. Mr. Fontenot, in your opening statement, 
you mentioned, and the question, I just want to get it clear, 
that a White House representative attended a meeting in New 
Orleans in November 2003 and ``was astonished that as of that 
date, we had not completed this type of plan, and promised to 
do what he could to help us get funding for this planning 
process.'' I didn't get that clear, was that Joe Allbaugh or 
was that somebody else, or do you not recall?
    Mr. Fontenot. No. I was at the meeting. Actually, it was 
Retired General John Gordon, and he was on the advisory 
council, Homeland Security Advisory Council.
    Senator Lieberman. OK. So----
    Mr. Fontenot. He was the gentleman that we were briefing.
    Senator Lieberman. Right. And you have some reason to 
believe that he went back and helped to facilitate the funding 
that resulted in Pam?
    Mr. Fontenot. That was my understanding, yes.
    Senator Lieberman. OK. Let me now go to the question of 
pre-storm evacuation. As Senator Collins said, as we have seen 
it in the records, the Committee has obtained early proposals 
that became Pam sought funding to study the problems of pre-
storm evacuation. Later, this was removed from the planning 
exercise. Mr. Fairley, do you know why that happened?
    Mr. Fairley. Yes, sir, in general. When we came together in 
the various meetings to discuss items that would result in 
planning topics, one of the things that we all experienced was 
for every question we asked, instead of coming up with an 
answer, we came up with five more questions.
    Senator Lieberman. Right.
    Mr. Fairley. And we realized very quickly that if you look 
at putting a catastrophic plan together starting with pre-
landfall, then response, and into recovery, that we could not 
finish it in one session. We may not be able to finish it in 
one year or several years. So we met with the State and said 
that we needed to look at something that we could handle in a 
short time frame or shorter time frame, and it was decided 
among everyone that response to the hurricane would probably be 
more appropriate than to worry about long-term recovery issues, 
which the response would probably dictate.
    Senator Lieberman. Yes.
    Mr. Fairley. So we went into the phase of eliminating items 
that were not considered response.
    Senator Lieberman. Looking back, and I know hindsight is 
always clearer than foresight, do you wish that you had 
included in Pam some element regarding pre-storm evacuation, 
which was obviously a big problem in Katrina?
    Mr. Fairley. Yes, sir. Hindsight says that evacuation was a 
very important element. We went on the basis that local and 
State law requires local and State evacuations, and we would 
support that.
    Senator Lieberman. Understood. Mr. St. Amant, can you tell 
us whether the Federal agencies in the Hurricane Pam exercises 
were advised that the City of New Orleans and surrounding areas 
had no effective way to evacuate people without personal 
transportation or were lead agencies advised in Pam of the 
city's efforts to prepare long-term for pre-storm evacuation?
    Mr. St. Amant. Absolutely, sir.
    Senator Lieberman. They were? What was your understanding, 
if you had one at that point, of any possible Federal role in 
pre-storm evacuation of a catastrophic hurricane?
    Mr. St. Amant. There is no question that no area with 1.6 
million people, with the lack of intermodal infrastructure, can 
move in a very fast or efficient manner on its own----
    Senator Lieberman. Right.
    Mr. St. Amant [continuing]. Specifically, not any poor 
States and poor areas such as Southeast Louisiana. To give you 
an idea, in my jurisdiction, I am divided by the Mississippi 
River. I have one road on each side to get out and get in. That 
is it. I have to get through two other jurisdictions to get my 
people safely out of the risk area. The bottom line, at the end 
of the day, there is no way that New Orleans, Jefferson, or 
anybody in that region is going to be able to meet this 
challenge on its own.
    We made specific knowledge known to them that as of the 
1990 census, the numbers of people in the region who are 
dependent upon regional transportation because they don't have 
their own automobiles. This effort and the surrounding 
challenges of the lack of intermodal transportation resources 
caused me great concern, not because of the hurricane that may 
give you 2 or 3 days to move, but short-term notice of 
evacuation, regarding the resources necessary, sir.
    So I will tell you this. Yes, I was there, and by the way, 
yes, my parish president did attend some of these sessions. He 
didn't have to be there. That is what he hires me to do, to 
advise him, to make sure. I answer directly to one man, not a 
committee, and that is why we tried to practice what we preach.
    Senator Lieberman. Mr. Fairley, from the FEMA point of view 
and insofar as you know from the Department of Homeland 
Security point of view generally, what, if any, changes 
occurred in response to the Hurricane Pam exercise, including 
the sense that we get to some extent--Mr. St. Amant just 
testified to it--it certainly comes through the Pam report and 
plan that in the event of a catastrophic hurricane, State and 
local first responders were going to be overwhelmed? Were there 
any changes in Region VI, the one that covered New Orleans, in 
terms of FEMA preparedness or plans to respond?
    Mr. Fairley. Yes, sir. In the frame of mind, there was 
great changes. I think a lot of us as a result of these 
sessions walked away seeing holes and gaps and fearing that we 
would not have things ready in time. As Jesse said, it was not 
a matter of if but a matter of when. I think we all were hoping 
that we could buy one more year.
    Senator Lieberman. Yes.
    Mr. Fairley. Yes, sir, we did try to speed things up. We 
tried to change directions. Not everything, of course, was 
available. At the time of the very first session, we were not 
sure that there would be a second session, so we were looking 
at trying to get things done on, I hate to say a fast pace, but 
a faster pace than normal. As it turned out, we did get a few 
extra sessions. So, yes, there were some changes of philosophy. 
When we worked with the locals and some of the State agencies, 
we realized that what we had always thought to be standard 
practices or were plans that were solid were, in fact, there 
were gaps in them, and it was through that cooperation that we 
discovered that.
    Senator Lieberman. With respect to you, and this is really 
a question to be asked of those higher up in FEMA who we will 
have before us, in response to the Hurricane Pam exercise, 
which was, as I said earlier, actually eerily predictive, what 
was necessary was more than a change of frame of mind. In other 
words, ideally, there would have been more action put into 
effect. I guess the ultimate question is why was FEMA and the 
rest of the Federal Government so slow, certainly appearing to 
me, in responding to both the clear oncoming of Katrina and 
then in responding once it hit?
    You know what, I don't even need to have you answer that 
question. That is what I am going to ask. But the point is, on 
the record, we don't see enough of a response certainly in the 
days before and immediately after Katrina hit landfall to 
exactly the lessons of the Hurricane Pam exercise and the plan 
itself, a very impressive, extensive, and detailed document.
    I want to come back on my second round and ask some more 
about what happened to the plan. Thanks, Madam Chairman.
    Chairman Collins. Thank you. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman, and to you and 
Senator Lieberman, all of our thanks for your extraordinary and 
typical tenacity in digging into this issue and all of its 
ramifications. The Nation is again truly in both of your debt 
for what you are doing here, and hopefully, it is going to help 
us deal with future catastrophic situations.
    I am a little uncertain on the question of what happened 
immediately prior to Katrina. Given the previous level of 
planning, given the previous studies that have been done, is it 
clear who was responsible primarily for the evacuation both 
pre-Katrina and post-Katrina, that rested in State and local 
governments rather than FEMA in terms of primary responsibility 
for evacuation? Mr. Fairley.
    Mr. Fairley. Senator, in my mind, yes, it was. The State of 
Louisiana law requires that Louisiana and its parishes prepare 
for evacuation from events. Our role is to support that as 
requested or as directed.
    Senator Levin. And Mr. Fontenot, is that your 
understanding?
    Mr. Fontenot. Yes, Senator, that is my opinion. I would 
also add that I think that New Orleans also knew that was the 
case because before I left State Government there was a meeting 
to discuss how the State could help them with that role, and--
--
    Senator Levin. OK. And Mr. St. Amant, is that your 
understanding, as well?
    Mr. St. Amant. The Louisiana Disaster Act clearly 
delineates the responsibilities of the emergency managers and 
parish presidents, etc. Yes, sir.
    Senator Levin. Thank you. Now, Exhibit H,\1\ you all have 
exhibit books, it is called the ``New Orleans Hurricane 
Shelter,'' and on the first page it says, ``Even under the best 
conditions, evacuation will leave at least 150,000 people in 
harm's way.'' I think it is the fourth page has something which 
is a document headed, ``Louisiana Superdome: Refuge of Last 
Resort.'' Do you see those documents, or that document, Exhibit 
H? Whose document is that? Is that a FEMA document or a parish 
document, a State document, what is that, does anyone know?
---------------------------------------------------------------------------
    \1\ Exhibit H appears in the Appendix on page 100.
---------------------------------------------------------------------------
    Mr. Fontenot. If I may, I think this is a New Orleans 
Parish document. It is not a State document, and I am pretty 
sure it is not a Federal document, but I will let Wayne talk to 
that.
    Mr. Fairley. No, sir, it is not a FEMA document.
    Senator Levin. It states here that not all citizens may be 
able to evacuate due to medical infirmity or dependency. It 
makes the statement that more than 57,000 households in New 
Orleans do not have access to an automobile and have not made 
adequate arrangements for evacuation. This is a life and death 
situation, that the Superdome may be mobilized as a refuge of 
last resort. So that was clearly known to whoever prepared that 
document, and I think in general is it fair to say that it was 
anticipated that a catastrophe of this scope could occur in New 
Orleans? Is that a fair statement, that all of you agree that 
it was anticipated that a catastrophe or a hurricane of this 
size and this impact could and probably or perhaps would occur 
in New Orleans? Is that a fair statement?
    Mr. St. Amant. Absolutely. It was our worst case nightmare.
    Senator Levin. All right, but I want to just go quickly 
along. Mr. Fairley, is that a fair statement?
    Mr. Fairley. Yes, sir.
    Senator Levin. And Mr. Fontenot.
    Mr. Fontenot. Yes, sir. We always said it was not a matter 
of if, but when.
    Senator Levin. OK. Ms. Beriwal.
    Ms. Beriwal. Yes, sir.
    Senator Levin. Now, after the catastrophe, we have 
Secretary Chertoff saying that this catastrophe exceeded the 
foresight of the planners and maybe anybody's foresight. How 
could he make that statement? Mr. Fontenot, I will start with 
you.
    Mr. Fontenot. I have no idea. You will have to ask Mr. 
Chertoff why he made that statement. I think that we have shown 
for years, we have been yelling about this potential disaster.
    Senator Levin. Mr. Fairley, have you talked to Mr. Chertoff 
about this, or----
    Mr. Fairley. No, sir, I have not.
    Senator Levin. FEMA is in his Department, as I understand 
it, or still there. Mr. St. Amant.
    Mr. St. Amant. July 22, 2005, quoted in the Associated 
Press where I stated when they released the study on the 
evacuation, behavioral study by UNO-New Orleans, that the 
results would be beyond comprehension. Anybody who has seen 
this, as most of you have, know what I am talking about. It is 
beyond comprehension.
    Senator Levin. It also was anticipated, was it not?
    Mr. St. Amant. Absolutely, but it still wasn't the worst 
case. If you think this is bad, no, it is not.
    Senator Levin. But nonetheless, a catastrophe of this scope 
at least was anticipated.
    Mr. St. Amant. Should have been.
    Senator Levin. Ms. Beriwal.
    Ms. Beriwal. Senator, I cannot comment on what Mr. Chertoff 
may or may not have known. I have no knowledge of it.
    Senator Levin. But from your perspective, a catastrophe of 
this scope was clearly anticipated, was it not?
    Ms. Beriwal. Yes, sir.
    Senator Levin. Now, immediately prior to the storm, on 
Saturday, if you look at Exhibit F,\1\ I guess this goes to 
you, Mr. Fairley. The FEMA staff at headquarters gave a 
briefing using a five-page Power Point, which is Exhibit F, and 
what that exhibit said, and this is the Saturday prior to 
landfall, that the Pam exercise projection is exceeded by 
Hurricane Katrina real-life impacts. Storm surge could greatly 
overtop levees and protective systems. Potential fatalities, 
60,000. Incredible search and rescue needs of over 60,000 
persons. Displacement of a million-plus population. Do you 
know, Mr. Fairley, who gave this briefing?
---------------------------------------------------------------------------
    \1\ Exhibit F appears in the Appendix on page 95.
---------------------------------------------------------------------------
    Mr. Fairley. No, sir, unfortunately, I do not. On Saturday, 
August 27, at around 12 noon, I was packing a suitcase, trying 
to get a plane to Baton Rouge, Louisiana, so I was not privy to 
this.
    Senator Levin. Thank you. Fair enough. So you wouldn't know 
who was briefed?
    Mr. Fairley. No, sir. I would assume that this was a 
briefing in the FEMA NRCC.
    Senator Levin. OK.
    Mr. Fairley. Excuse me, I'm sorry about using the initials, 
the NRCC, which is the National Response Coordination Center. 
But I'm not sure which official was making it.
    Senator Levin. Do any of you know who gave the briefing and 
who was briefed?
    Mr. Fontenot. No, sir. I have no clue.
    Ms. Beriwal. No, sir.
    Senator Levin. All right. Now, the next day, or the same 
day, Exhibit K,\2\ there was a computer simulation run at the 
National Infrastructure Simulation and Analysis Center. Is that 
NISAC, does that sound correct?
---------------------------------------------------------------------------
    \2\ Exhibit K appears in the Appendix on page 104.
---------------------------------------------------------------------------
    Ms. Beriwal. NISAC.
    Senator Levin. OK, at NISAC. This is part of the Department 
of Homeland Security, and it was performed on August 27, this 
computer simulation, and it is Exhibit K, and there was an 
update performed on August 28, and this was delivered to the 
White House Situation Room at 1:47 on Monday morning, August 
29. This NISAC report stated that the potential for severe 
storm surge to overwhelm Lake Pontchartrain levees is the 
greatest concern for New Orleans according to the NISAC report. 
So Homeland Security knew prior to the breach of the levees, at 
least a number of hours before the breach of the levees, that 
this was the greatest concern for New Orleans. Do you know 
where the NISAC folks got that terminology, Mr. Fairley?
    Mr. Fairley. No, sir, I do not.
    Senator Levin. But is it fair to say that in terms of the 
impact of a severe, catastrophic storm that it was known that 
the breach of the levees could be one of the impacts?
    Mr. Fairley. Yes, sir, I think in all of the planning 
scenarios and past disasters that we always knew that a 
breaching or an overtopping of the levee could lead to----
    Senator Levin. Either one?
    Mr. Fairley. Either one.
    Senator Levin. And do you know who got that report at the 
White House?
    Mr. Fairley. No, sir, I do not.
    Senator Levin. All right. Does anyone here know?
    Mr. St. Amant. No, but I wish they would have shared it 
with us. That might have been nice.
    Senator Levin. Are you familiar with this?
    Mr. St. Amant. Not at all.
    Senator Levin. Is anyone familiar with Exhibit K?
    Ms. Beriwal. No, sir.
    Senator Levin. Mr. Fontenot.
    Mr. Fontenot. No, sir.
    Senator Levin. If you look at page 37 of that exhibit--by 
the way, we also have the statement of the President that he 
says he doesn't think anyone anticipated the breach of the 
levees. Now, I don't know how he can say that given the fact 
that everybody anticipated the breach of the levees according 
to you folks, but I guess that is something the White House is 
going to have to respond to. He said that on Thursday, 
September 1, on Good Morning America. ``I don't think anyone 
anticipated the breach of the levees,'' when it is obvious that 
everybody anticipated that was a realistic possibility. But go 
to page 37.
    Mr. Fontenot. Sir, we don't have a page 37.
    Senator Levin. All right. Do they have this exhibit? I am 
out of time anyway. I will have to get to that in my second 
round. Thank you.
    Chairman Collins. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Madam Chairman. Our thanks to each 
of our witnesses. We are delighted that you are here. We 
appreciate very much your testimony and putting some light on 
these issues that we wrestle with.
    I think I would like to start off with a question for each 
of you, if I may, and then I have a couple of individual 
questions. We learned a number of lessons about the gaps in 
planning during the Hurricane Pam exercise, but there are still 
quite a few questions that we know we need to follow up on. I 
guess my question for all of you would be this. If you had to 
do it all over again, how would you ensure that the lessons 
learned during this exercise were better translated into your 
particular agency or entity's emergency plan?
    Mr. Fairley. That is a very good question, sir, and very 
difficult to answer. From the lessons learned, to go back and 
do it again, to repeat the process, I think this time we would 
look at existing laws, regulations, policies, and procedures to 
see where they did not meet the level of what happened, the 
reality. We would work closer with the State and the locals in 
sharing responsibility, not to assume their responsibility, not 
to force ourselves, but to share in implementing those 
shortfalls that we saw come to light as the real shortfalls.
    As an individual, if I was running the situation, I would 
take these lessons learned and put them into some form of 
usable, implementable activity that would address--we were 
building a partnership where we were beginning to lose the 
yours, mine, and ours syndrome--to me, that would be very 
necessary to make this part of the lessons learned, is that 
everybody has a stake in it. Everybody is a taxpayer. We need 
to work together and try to come to, this is not yours, this is 
not mine, it is ours and move forward. So that is the biggest 
thing that I have learned in this whole disaster, is that we 
need to work closer and stop the concept sometimes of local, 
State, and Federal Government, but to work more as one unit. I 
know that is theoretical sounding, but that is a true belief.
    Senator Carper. OK, thank you. Mr. Fontenot.
    Mr. Fontenot. I agree----
    Senator Carper. Again, the question is, looking back at 
what was learned, how would you ensure that the lessons learned 
during this exercise were better translated into your 
particular agency's emergency plan?
    Mr. Fontenot. I agree with what Wayne is saying about the 
yours, mine, ours concept, and I think that is something that 
needs to be pushed further, and we tried to do that from day 
one with the exercise with the contractors. This is a team. 
This is not an us versus you type of thing.
    What would I have done differently? Given the same 
circumstances that I had back then, I don't know if I could 
have done anything differently. Rather than getting on the roof 
and start shouting and then people thought I was crazy and sent 
me to an asylum, I don't know what else I could have done.
    Mr. St. Amant. I would listen. My turn?
    Senator Carper. Please. You pronounce your last name St. 
Amant?
    Mr. St. Amant. Yes, sir.
    Senator Carper. Thank you.
    Mr. St. Amant. Please call me Jesse.
    Senator Carper. St. Jesse?
    Mr. St. Amant. That is fine. [Laughter.]
    What we did----``Louisiana Citizens' Awareness and 
Evacuation Guide.'' Plaquemines Parish went out and spent some 
money, and they had every one of these delivered to a person's 
residential address before the storm hit, about a month before 
the storm hit. This was produced with Homeland Security funds. 
It tells people what to do when they have to evacuate. That is 
one of the results of Hurricane Pam. Public health impacts----
    Senator Carper. We get a lot of things at our home in the 
mail, and I am sure others do, as well. How do you know whether 
people, one, read it; two, internalized it, studied it; and 
three, did anything differently as a result?
    Mr. St. Amant. That is of no consequence because when we do 
mandatory evacuation, we put our volunteers and our sheriff's 
office on the street and the bullhorns, and we tell them, you 
are under--we don't assume that someone is going to hear the 
news in an area. We will make it happen. You can never do that 
in emergency management.
    The reason--and let me clear something up, if I may. This 
agency who put out this dire report or whatever, if it came out 
at 9 a.m., it is because the sheriff, the parish president, and 
I were on television telling people to get out of Dodge. BOOT, 
Be Out Of Town. I don't need somebody from Washington to tell 
me, as Emergency Preparedness Director, when to advise the 
parish president or the sheriff what we need to do. They are 
consummate professionals. They expect me to be one. I expect 
the government officials, when I advise them to do something, 
to follow my lead.
    The bottom line, sir, or I think the point I am trying to 
make here, you asked the question, what did we learn? I went 
back and I took a look at my hurricane plans again----
    Senator Carper. That wasn't my question.
    Mr. St. Amant. I made some adjustments----
    Senator Carper. No, let me repeat my question again. How 
would you ensure that the lessons learned during this exercise 
were better translated into your agency's particular emergency 
plan? That is my question.
    Mr. St. Amant. Because I know the vulnerability assessment, 
we know to get out. Pam, I was there as a subject matter expert 
as well as the other directors, worked to tell them what they 
were going to inherit. If you have to tell me what I am faced 
in a Category 2, 3, or 4 hurricane, they have got the wrong guy 
for the job. It is my responsibility to prepare that parish to 
do what is necessary to get out. It was my responsibility under 
the Pam scenario to advise IEM and the FEMA people what they 
are going to have to deal with to better prepare them, and to 
that end, I strongly suggest that they scrap the Stafford Act, 
which is still governing this emergency instead of a National 
Disaster Response. But anyway, that is one of the terms that we 
asked that we learned from Pam.
    The other thing was, have a pre-landfall declaration 
because it gives us the authority and gives us the support 
necessary to evacuate pre-landfall. Up until this such time, I 
have to tell you, and this is what was done for Katrina, and it 
was necessary. Was it done soon enough? History will judge us.
    But the fact of the matter is, it is one of the few times 
in history it is being done. And let me add, if it wasn't for 
some of my fellow directors and I trying to beg and almost 
demand that we do a Pam exercise, it wouldn't have happened. It 
would have gone away. So I just hope someone listens to what is 
being said, that is all. Sorry for my frustration, sir. It has 
been a long couple of months, too.
    Senator Carper. Thank you. Ms. Beriwal. The question is 
probably not entirely appropriate for you because I don't 
believe you are here representing any particular agency, but 
would you comment on it nonetheless?
    Ms. Beriwal. I would like to, Senator. Thank you very much. 
I think that there are certain things that we are taking as 
lessons learned from this as we go about the country and 
internationally helping our customers with emergency 
preparedness.
    First of all, I think what we learned is that a scenario-
based planning exercise process like Hurricane Pam can be quite 
effective. Perhaps that is not where your question was going, 
but I think this is a finding that we have discovered, 
particularly having the planners and the operational people in 
the same room so that the operational people have the real-life 
operational concerns there, and the planners can look at this 
issue from a wider time scale and a wider geographic scale. It 
is very effective to have those two groups together.
    I think that integrating science and technology like we did 
into the consequence assessment was very vital. It was very 
important. It gave a sense of reality to the participants which 
they carried forward and probably used in Katrina itself. So I 
think that was a very important lesson learned from that, that 
we need to integrate our scientific and technological knowledge 
in this country, which we have a vast amount of, and pour it 
into these kinds of events.
    The third thing, I think, that I would say is that 
leadership does need to be present, and that is what I would 
say their role is----
    Senator Carper. I am sorry, what needs to be present?
    Ms. Beriwal. The leadership does need to be present for the 
different layers of government, and one of their primary roles 
is in deriving what the outcomes are that they would like to 
see. I would say that in Hurricane Pam, we worked with all the 
13 parishes and we projected 61,290 dead. That was known in 
Pam. Well, 1,100 dead in Katrina is deemed unacceptable, so we 
have to define what is acceptable, and that is a role for the 
elected officials--to decide what is acceptable.
    I do think, also, that we need to have emergency management 
where we can actually take our plans, our doctrines, our 
training, our exercises, and our equipment and be able to pour 
that into a single modeling and simulation capability that 
basically gives us, well, how much protection this is providing 
because you don't know when you are dealing with hundreds of 
variables, all of which could have very many different values. 
Where we are at that point is not known unless you pull this 
together and are able to quantify protection in some measurable 
manner.
    And third, I would say that our exercises need to be a lot 
more outcome-based so that when we actually do test a plan, we 
should be able to see how many people did we save, how many 
people died, how many people were injured, and could we have 
done better. It has been one of my maxims since right after 
September 11--I was actually on the Defense Science Board that 
looked at intelligence gathering for terrorism, so it hit home 
closer to me when the events of 9/11 occurred. My maxim to my 
people was, if we can find a way to save one more person, had 
we found one person in the Twin Towers that we would have 
rescued and brought out, we would all as a Nation have been 
happy. So we would like to find that one additional person that 
we can save from trauma or death in these kind of events, and 
we can't do that until we actually have an outcome-based 
emergency management system.
    Senator Carper. Good. Thank you for a very helpful 
response. Thank you.
    Chairman Collins. Thank you, Senator.
    The end product from the Hurricane Pam exercise was the 
Southeast Louisiana Catastrophic Hurricane Plan, and that plan 
includes an appendix that is entitled, ``Transportation, 
Staging, and Distribution Execution Time Line.'' The appendix 
can be found in your exhibit book after Tab B,\1\ and I would 
ask that each of you take a look at it.
---------------------------------------------------------------------------
    \2\ Exhibit B appears in the Appendix on page 80.
---------------------------------------------------------------------------
    On page two, this document indicates that 50 hours before 
landfall, the plan calls for pre-staging 600 buses and 1,200 
drivers. I am going to start with you, Mr. Fairley, and then go 
across. Was it clear to you whose responsibility it was to 
stage those buses?
    Mr. Fairley. Yes, ma'am, at the time. Working off our 
normal way of business, local has first-line responsibility, 
followed by the State, supplemented by the Federal. We came up 
with an estimated need of around 600 buses. From that, to get 
to the Federal part, we would have subtracted what the locals 
would have, followed by what the State would do, and then we 
would pre-stage or try to pre-stage the remaining. So, yes, 
ma'am, for me, it was clear based on our normal business 
activities.
    Chairman Collins. So the responsibility was first at the 
local level, then at the State, and then Federal, if requested?
    Mr. Fairley. Yes, ma'am, that is the normal procedure. We 
never tell the Governor what they do or do not need. They will 
request us to provide those assets.
    Chairman Collins. And was this plan followed?
    Mr. Fairley. Yes, ma'am, it was, but it was not successful.
    Chairman Collins. Mr. Fontenot, same question for you. Do 
you think it is clear whose responsibility it was to stage 
those buses and those drivers?
    Mr. Fontenot. Senator, first, let me say that this 
happened, this session happened after I left the State of 
Louisiana.
    Chairman Collins. Right.
    Mr. Fontenot. I left May 31. This happened in July. But 
with not being there, yes, it was very clear in my mind whose 
responsibility evacuations was and whose responsibility that 
evacuating their citizens was, and it first starts with the 
local level. Then it goes to the State level, and it is 
whatever the local level cannot handle, they come to the State 
and ask for help with, and we try to help them as much as we 
can. Then whatever we can't help with, we go to the Federal 
Government to ask for help. It also needs to be pointed out, 
though, that this is 50 hours pre-landfall----
    Chairman Collins. Right.
    Mr. Fontenot [continuing]. According to this plan. The 
Federal Government under the rules that it is under wouldn't 
come in 50 hours to pre-stage buses for us to have access to at 
hour 50. They may be pre-staging some assets for later use, but 
at this point in time, the declaration wouldn't have been made 
and the Federal Government wouldn't have the authority to turn 
those buses over to us. However, in my mind, then yes, it was--
it is clear by reading this plan. But again, I wasn't there for 
the discussions so I don't know exactly what discussion went 
around developing this time line.
    Chairman Collins. Mr. St. Amant, you are a very experienced 
emergency management official. Was it clear to you and to the 
other parishes and to the City of New Orleans who was 
responsible for staging those buses 50 hours prior to Katrina 
hitting?
    Mr. St. Amant. You referenced this booklet, ma'am, and to 
answer your question, just if you want to read my exact 
quotation, Exhibit D,\1\ the last paragraph, if you don't mind 
me reading it, and I will answer the question. Jesse, it says, 
``One message to get to FEMA headquarters is a pre-landfall 
declaration in a catastrophic situation is very much needed and 
should be a requirement. There are a lot of people without 
personal transportation. Therefore, if we don't move people out 
of New Orleans in an appropriate time, there will be mass 
casualties. The city at this moment does not have the resources 
or capability to evacuate these people. Therefore, a pre-
landfall declaration is a necessity and a requirement for life 
and safety.''
---------------------------------------------------------------------------
    \1\ Exhibit D appears in the Appendix on page 90.
---------------------------------------------------------------------------
    The issue that I was trying to raise, it was a discussion 
of all that, not only evacuation resources, etc. We were under 
the impression that is exactly why we were there, to try to 
bring out these points of the mass infrastructure lack of 
capability and the necessary logistics support that would be 
necessary to move that many people outside of the risk area.
    Chairman Collins. But there is also a document that is in 
Exhibit D which contains the notes from what appears to be the 
final briefing of the Unified Command on July 29, 2005, and it 
includes a section on transportation. You are listed as a 
participant in that briefing. And comments that are attributed 
to Don Day note, ``We need to pre-identify the sources for 
these buses and have them lined up and ready. There are plans 
to evacuate buses and operators out before the storm, but we 
are at less than 10 percent done with this transportation 
planning when you consider the buses and the people.''
    I am trying to get a sense, given that this plan pretty 
clearly outlines what needs to be done, why it didn't succeed, 
and I am wondering if it is because Katrina hit too soon and 
the planning wasn't completed, or whether there was confusion 
over who was responsible for what, or whether the State and 
local entities were simply overwhelmed by a catastrophe of this 
magnitude. But keep in mind, this is pre-storm, so that is why 
I am trying to get an understanding. Could you help me better 
understand this?
    Mr. St. Amant. Lack of planning, lack of coordination, lack 
of funding, lack of staff, we can pick any multitude of 
reasons, excuses why it didn't happen. I remember having the 
situation where I had three busloads of people ready to get out 
of a nursing home. This was when I was with the State as an 
emergency transportation coordinator. I was working at the 
State Emergency Office. I get a phone call, we have got three 
busloads of nursing home people, St. Michael's, and two of the 
bus drivers got on the plane and went to Atlanta. We had to 
provide emergency resources to get them out right before we had 
to close the Interstate down.
    People panic, and in this case, when you are looking at the 
worst nightmare come true, I can understand. It doesn't excuse 
the fact that we need to be prepared for this, that you need to 
have plans in place. This is what Pam was trying to accomplish. 
The fact of the matter is, the lessons learned by these things 
that we were actually discussing was going to visit us sooner 
than we anticipated. The purpose for which it was intended was 
to teach us how and what we needed to do collectively. We 
recognized the shortcomings. The fact that they were not put in 
place is only because the lessons learned from Pam were not 
disseminated down and got to the pubic officials to which it 
was supposed to serve.
    Chairman Collins. Thank you.
    Ms. Beriwal, my time has expired, so if you could just give 
me a very brief comment in response to this plan and your 
assessment of responsibility and whether that was clearly 
understood.
    Ms. Beriwal. It is my perception that the local authorities 
were responsible for evacuation of the public and that they 
would ask for resources and the State would provide resources 
if necessary, and if States felt that they could not provide 
those resources, that they would request it from the Federal 
Government, and that was mostly the discussion.
    I would like to clarify one thing, which is that phase one 
of Hurricane Pam, the four workshops that were held (workshops 
1, 1A, 1B), they were all phase one of the planning process 
where we were going to create the Incident Action Plans. Phase 
two of Hurricane Pam was expected to be a consolidated plan for 
the whole area where we would look at the resources and see if 
those things that we identified in the Incident Action Plan 
could be implemented. That phase has not started. It is not 
done, and we are sitting 127 days before the start of the next 
hurricane season for Southeast Louisiana.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Let me just pick up there with you, Ms. Beriwal. Just so I 
make sure I understand, the document you--first off, you 
presented a scenario based on a lot of, I think, very 
impressive scientific, meteorological data about what the 
impact of a catastrophic storm in New Orleans might be, and am 
I correct that in the dramatic and all-too-accurate predictions 
you made of flooding, of damage to property, of the impact on 
housing and education, hospitals, health care, etc., that you 
were assuming the status quo in terms of the government 
response, in other words, that it inherently showed that 
something more had to be done because obviously you had a 
report suggesting that 60,000 people might be killed in such a 
storm, so no one in government reading that could have said, 
well, that is OK. Am I understanding what the goal of the Pam 
exercise was?
    Ms. Beriwal. Let me clarify this by giving an example, 
Senator.
    Senator Lieberman. Yes.
    Ms. Beriwal. The 61,290 deaths were based on the 36 percent 
evacuation rate from the area, and to come up with the 36 
percent evacuation, first, we went through the scientific 
literature like Jesse mentioned--the UNO study and the Corps of 
Engineers study on public behavior after storms in Louisiana as 
well as public opinion surveys----
    Senator Lieberman. Can I interrupt a second?
    Ms. Beriwal. Certainly.
    Senator Lieberman. Did that estimate also include your 
evaluation of the existing capacity of State and local agencies 
to assist in the evacuation?
    Ms. Beriwal. Senator, that is exactly where I was going. 
Taking those numbers, we went back to the 13 parishes and 
shared with them our initial numbers for the expected response 
rate for each parish. We worked with Jesse. We worked with the 
folks from the other 12 parishes and said, ``these are the 
numbers for your parish. Do you think this is credible or do 
you have a mechanism to raise this number? Would you like the 
number to be higher or lower?'' because we wanted to make it 
plausible. So we took our scientific data and then we went back 
to the parish experts and said, ``let us adjust these numbers 
based on what you think is credible for your parish.''
    Senator Lieberman. Credible meaning what more you are able 
to do, or what you are able to do with what you have now?
    Ms. Beriwal. What you are able to do now.
    Senator Lieberman. OK.
    Ms. Beriwal. It was really the expectation of your current 
plan, your current procedures, your current policies, how much 
evacuation would be expected in your parish. And then we rolled 
up the numbers based on the feedback from the emergency 
management directors for the 13 parishes to come up with the 36 
percent number.
    Senator Lieberman. OK. And then in the plan, which is quite 
extensive and detailed, what you describe is what the 
responsibilities of the various agencies, Federal, State, and 
local, would be to reduce the impact of a catastrophic 
hurricane, correct?
    Ms. Beriwal. Right.
    Senator Lieberman. Now my question is, what happened then? 
Maybe your contract was over at that point. I don't mean 
literally over, but what was supposed to happen with the plan 
because you have now presented a rather dramatic and disastrous 
set of events--property damage, life lost, over 60,000 people 
dead as a result of Hurricane Pam projection based on the 
status quo of what the government was able to do at that time. 
Then what did--well, what did you expect to happen? Was there 
any mechanism to implement changes in government so they could 
achieve better results?
    Ms. Beriwal. Is the question for me, Senator?
    Senator Lieberman. Just as a starter, yes.
    Ms. Beriwal. If the State of Louisiana did not have the 
ability to impact the system, we certainly had a lesser ability 
as a contractor. So we were tasked to do Hurricane Pam. We did 
the draft, and then they came forward and asked us to do the 
subsequent follow-on workshops. We did those, and we were 
waiting for further direction on where the government wanted us 
to go.
    Senator Lieberman. Were the follow-on workshops, they were 
after the plan was published? In other words, by my dating, the 
plan was published in January 2005. The workshops were a little 
bit later. Were those supposed to focus on what changes the 
Federal, State, and local governments should enact to try to 
diminish the impact of this catastrophic hurricane?
    Ms. Beriwal. Actually, the first workshop was in July 2004, 
and by January 5, 2005, we had done five versions of the 
planning documents. The second workshop was in November and 
December 2004.
    Senator Lieberman. OK, I have got you. So nothing followed 
the plan. So I guess I would ask Mr. Fontenot or Mr. St. Amant, 
what happened with the plan at the State and local government 
level, and Mr. Fairley to the extent you know what happened at 
the Federal Government level, because from what we saw, a lot 
of heroic individual effort by governmental employees at each 
level of government but also a lot that wasn't done which could 
have diminished the impact of the storm. Mr. St. Amant, do you 
want to start? What happened to the plan because obviously 
there wasn't enough there to mitigate on the status quo the 
impact of a catastrophic hurricane, which came.
    Mr. St. Amant. There were certain portions of the plan, in 
our discussion as a result of our participation, that I was 
able to bring back and to adjust some of what we did in my 
jurisdiction of Plaquemines Parish. You have to understand, I 
was present at all of these planning meetings that I was 
invited to. My parish president was at one, and he decided that 
is why I am going to have to go to them, so I can keep him 
informed----
    Senator Lieberman. And is it fair to say that there--I have 
some sense of you that you were not shy about saying to 
everyone there that the parish and the City of New Orleans, as 
far as you could tell, was just not up to dealing with a storm 
of Katrina-size consequences?
    Mr. St. Amant. I know these two gentleman quite well and 
have worked closely. I think you will find that they will 
verify that, sir. I am just glad that they still invite me to 
these meetings. I have been known to be just a little bit 
outspoken because of my passion and concerns for the risk that 
we have.
    Senator Lieberman. My time actually is up, but if you can--
Mr. Fontenot or Mr. Fairley, if you would respond to the 
question. What happened, if anything, to close the gap between 
the responsibilities the plan gave the State and Federal 
Government and the reality?
    Mr. Fontenot. I will speak about what happened at the State 
level up until May 31, 2005, when I left the State.
    Senator Lieberman. Yes.
    Mr. Fontenot. Since I was the Chief of Plans, it was my 
responsibility to try to do something with the plans that came 
out of Hurricane Pam. One of the things that we recognized 
right away was that we need to get our State plan in line with 
the Federal plan, or now the National Response Plan. So I went 
to my boss at the time, recommended that we--we were at the end 
of a 4-year planning cycle anyway. We needed to update our 
State plan anyway. So in the middle of this, why don't we go 
ahead and just go ahead and do a major revision to the plan to 
make it more compatible with the National Response Plan, and 
that was step A.
    I concentrated the resources that I had at the time with 
the State to do that. I thought that was the most important 
step in the process. That occurred, and as I was leaving State 
Government, that plan was being implemented in the State. It 
was being signed off on. It had already been signed off on by 
all the signatory agencies that had actions in the plan or 
responsibilities in the plan, and it was being sent to the 
Governor to be signed off by her, and then I left.
    One of my goals that did not get implemented before I left 
was to then pull the responsible agencies for certain sections 
of the Pam work and also with the State plan and get them 
together and talk about and try to do more planning and get 
them to figure out where the holes were and how to fix the 
holes. However, since I left, I did not get a chance to do 
that, but that was one of my personal goals.
    Senator Lieberman. I presume, based on what we saw, that 
between the time you left in May and the hurricane hit in 
August that not much of what was recommended was accomplished.
    Mr. Fontenot. Sir, I left government. I can't really talk 
about what they did after I left.
    Senator Lieberman. OK. Mr. Fairley, actually, in some ways, 
I asked you this question last time around. I don't know if you 
want to add anything.
    Mr. Fairley. No, sir. I can add just a little bit. One of 
the things we were doing in the region was taking what we had 
developed in these scenarios and taking a very hard look at it 
and comparing it to what we had in existence as far as our 
hurricane response checklist and any other plan we had, 
especially as it went back to the National Response Plan, to 
make sure that there were no holes, gaps, or bumps in the road 
that we thought would cause us. That was in formulation. We 
were also working on requests for additional sessions to go 
beyond the funding cycle.
    What several of us got out of it, Senator, was the enormity 
of what we had gone through and where we needed to go and that 
it didn't need to stop. It needed to be permeated out to all 
Federal agencies, all State agencies, and all local agencies. A 
lot of Federal agencies have participation and some type of 
ownership of a lot of things in that area, and we wanted to not 
necessarily just have a pretty plan, but we wanted to see other 
agencies be funded to do things and provide offshoot 
activities. So that is where we were beginning to formulate. 
Then, unfortunately, the hurricane hit.
    Senator Lieberman. I presume that you, Mr. Fairley, Mr. 
Fontenot, and Mr. St. Amant, all concluded after the Hurricane 
Pam exercise that your particular level of government, Federal, 
State, or local, was not adequately prepared to respond to a 
catastrophic hurricane like Pam or the real Katrina, correct? I 
am way over my time.
    Mr. St. Amant. You are absolutely correct, sir. It is our 
opinion that Federal, State, or local government is not 
prepared to deal with a catastrophic response.
    Senator Lieberman. Correct, Mr. Fontenot?
    Mr. Fontenot. Correct.
    Senator Lieberman. Thank you, and thanks, Mr. Fairley. 
Thanks, Madam Chairman.
    Chairman Collins. Thank you, and that last answer is why we 
are here. It is very troubling with the start of the hurricane 
season only a few months away, I wonder if we have learned the 
lessons of Katrina much less the lessons of Pam.
    I strongly believe that planning and simulations such as 
Hurricane Pam can greatly strengthen our preparedness and 
response, and I can't help but think that if Pam had been 
funded back in the late 1990s or early in 2000, when it was 
first discussed, and if there had been more of a sense of 
urgency, more clarity as to who was responsible for what, and 
better implementation of the plan, that the response to Katrina 
would have been better. Katrina would have been a natural 
disaster that was overwhelming and taxed all levels of 
government regardless, but I can't help but think that 
evacuation would have gone more smoothly if the plans outlined 
here had gone into effect, and if there had been a better 
understanding of the roles of the various entities, and that is 
why we wanted to learn from you today and get your insights and 
perspectives.
    I very much appreciate your sharing your testimony with us 
and working with the staff in preparation for this hearing. I 
hope that we can learn from your experience and that next time 
we will, in fact, be better prepared. But as each of you has 
reminded us today, we still have a very long ways to go.
    Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. I couldn't agree 
with you more, and in some senses, you go back through this 
painful history, you see the predictions, the awareness, 
particularly by people in the region and in the city that this 
is coming and we are not ready for it. And yet there is some 
way in which the problem over the horizon doesn't seem quite as 
real as what you are dealing with today. I guess people just 
hope and pray that the disaster that everyone says will come 
one day doesn't come.
    But here it came, and we were just there last week, Senator 
Collins and I and four or five other Members of the Senate, and 
I must tell you, 4 months after we had been there the first 
time, a couple weeks after Katrina hit landfall, it was 
stunning and horrific, really. I have been to areas after 
natural disasters. I have been to war zones. I was in Kuwait 
after 1991. I was in Bosnia and Kosovo, and I have just been to 
Baghdad. I have never seen such extensive damage as I saw in 
New Orleans and the Gulf Coast generally.
    We are motivated by that painful reality and the suffering 
that people endured because we live in an age when you just 
have to say, we can't kid ourselves, that there are going to be 
more natural disasters and, God forbid, there are going to be 
some unnatural disasters because of the enemies we face in the 
world today. That is the focus of these investigations.
    You have set a foundation in what you did in Hurricane Pam. 
We are going to try to put it to work so that next time the 
governments at all levels are more prepared and respond more 
aggressively to the disaster and the harm will be less, we hope 
and pray.
    Thank you very much.
    Chairman Collins. Thank you.
    This hearing is now adjourned. The hearing record will 
remain open for 15 days for the submission of additional 
materials. Thank you very much for your cooperation.
    [Whereupon, at 12:15 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6749.001

[GRAPHIC] [TIFF OMITTED] T6749.002

[GRAPHIC] [TIFF OMITTED] T6749.003

[GRAPHIC] [TIFF OMITTED] T6749.004

[GRAPHIC] [TIFF OMITTED] T6749.005

[GRAPHIC] [TIFF OMITTED] T6749.006

[GRAPHIC] [TIFF OMITTED] T6749.007

[GRAPHIC] [TIFF OMITTED] T6749.008

[GRAPHIC] [TIFF OMITTED] T6749.009

[GRAPHIC] [TIFF OMITTED] T6749.010

[GRAPHIC] [TIFF OMITTED] T6749.011

[GRAPHIC] [TIFF OMITTED] T6749.012

[GRAPHIC] [TIFF OMITTED] T6749.013

[GRAPHIC] [TIFF OMITTED] T6749.014

[GRAPHIC] [TIFF OMITTED] T6749.015

[GRAPHIC] [TIFF OMITTED] T6749.016

[GRAPHIC] [TIFF OMITTED] T6749.017

[GRAPHIC] [TIFF OMITTED] T6749.018

[GRAPHIC] [TIFF OMITTED] T6749.019

[GRAPHIC] [TIFF OMITTED] T6749.020

[GRAPHIC] [TIFF OMITTED] T6749.021

[GRAPHIC] [TIFF OMITTED] T6749.022

[GRAPHIC] [TIFF OMITTED] T6749.023

[GRAPHIC] [TIFF OMITTED] T6749.024

[GRAPHIC] [TIFF OMITTED] T6749.025

[GRAPHIC] [TIFF OMITTED] T6749.026

[GRAPHIC] [TIFF OMITTED] T6749.027

[GRAPHIC] [TIFF OMITTED] T6749.028

[GRAPHIC] [TIFF OMITTED] T6749.029

[GRAPHIC] [TIFF OMITTED] T6749.030

[GRAPHIC] [TIFF OMITTED] T6749.031

[GRAPHIC] [TIFF OMITTED] T6749.032

[GRAPHIC] [TIFF OMITTED] T6749.033

[GRAPHIC] [TIFF OMITTED] T6749.034

[GRAPHIC] [TIFF OMITTED] T6749.035

[GRAPHIC] [TIFF OMITTED] T6749.036

[GRAPHIC] [TIFF OMITTED] T6749.037

[GRAPHIC] [TIFF OMITTED] T6749.038

[GRAPHIC] [TIFF OMITTED] T6749.039

[GRAPHIC] [TIFF OMITTED] T6749.040

[GRAPHIC] [TIFF OMITTED] T6749.041

[GRAPHIC] [TIFF OMITTED] T6749.042

[GRAPHIC] [TIFF OMITTED] T6749.043

[GRAPHIC] [TIFF OMITTED] T6749.044

[GRAPHIC] [TIFF OMITTED] T6749.045

[GRAPHIC] [TIFF OMITTED] T6749.046

[GRAPHIC] [TIFF OMITTED] T6749.047

[GRAPHIC] [TIFF OMITTED] T6749.048

[GRAPHIC] [TIFF OMITTED] T6749.049

[GRAPHIC] [TIFF OMITTED] T6749.050

[GRAPHIC] [TIFF OMITTED] T6749.051

[GRAPHIC] [TIFF OMITTED] T6749.052

[GRAPHIC] [TIFF OMITTED] T6749.053

[GRAPHIC] [TIFF OMITTED] T6749.054

[GRAPHIC] [TIFF OMITTED] T6749.055

[GRAPHIC] [TIFF OMITTED] T6749.056

[GRAPHIC] [TIFF OMITTED] T6749.057

[GRAPHIC] [TIFF OMITTED] T6749.058

[GRAPHIC] [TIFF OMITTED] T6749.059

[GRAPHIC] [TIFF OMITTED] T6749.060

[GRAPHIC] [TIFF OMITTED] T6749.061

[GRAPHIC] [TIFF OMITTED] T6749.062

[GRAPHIC] [TIFF OMITTED] T6749.063

[GRAPHIC] [TIFF OMITTED] T6749.064

[GRAPHIC] [TIFF OMITTED] T6749.065

[GRAPHIC] [TIFF OMITTED] T6749.066

[GRAPHIC] [TIFF OMITTED] T6749.067

[GRAPHIC] [TIFF OMITTED] T6749.068

[GRAPHIC] [TIFF OMITTED] T6749.069

                                 <all>

</pre></body></html>
